No._________
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------LAUREL ZUCKERMAN, AS ANCILLARY
ADMINISTRATRIX OF THE ESTATE
OF ALICE LEFFMANN,
Petitioner,
v.
THE METROPOLITAN MUSEUM OF ART,
Respondent.
-----------------------------------------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit
-----------------------------------------------------------------APPENDIX TO PETITION FOR
A WRIT OF CERTIORARI
-----------------------------------------------------------------LAWRENCE M. KAYE
HOWARD N. SPIEGLER
ROSS L. HIRSCH
YAEL M. WEITZ
HERRICK, FEINSTEIN LLP
Two Park Avenue
New York, New York 10016
Telephone: (212) 592-1400
lkaye@herrick.com

MARY-CHRISTINE SUNGAILA
Counsel of Record
WILLIAM FELDMAN
MARCO A. PULIDO
HAYNES AND BOONE, LLP
600 Anton Blvd., Suite 700
Costa Mesa, California 92626
Telephone: (949) 202-3000
mc.sungaila@haynesboone.com

Counsel for Petitioner
January 24, 2020
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
APPENDIX
TABLE OF CONTENTS
Page
United States Court of Appeals for the Second
Circuit, Opinion, Filed June 26, 2019 ............. App. 1
United States District Court for the Southern
District of New York, Opinion, Filed February
7, 2018 ............................................................ App. 23
United States District Court for the Southern
District of New York, Judgment, Filed February 7, 2018 ...................................................... App. 68
United States Court of Appeals for the Second
Circuit, Order Denying Petition for Rehearing, Filed August 29, 2019 ............................. App. 69
Public Law 114-308, Holocaust Expropriated
Art Recovery Act of 2016, Filed December 16,
2016 ................................................................ App. 71
United States District Court for the Southern
District of New York, Amended Complaint,
Filed November 2, 2016 ................................. App. 80

App. 1
UNITED STATES COURT OF APPEALS
FOR

THE

SECOND CIRCUIT

-----------------------------------------------------------------------

August Term, 2018
(Argued: February 27, 2019 Decided: June 26, 2019)
Docket No. 18-634
-----------------------------------------------------------------------

LAUREL ZUCKERMAN, AS ANCILLARY
ADMINISTRATRIX OF THE ESTATE OF ALICE LEFFMANN,
Plaintiff-Appellant,
–v.–
THE METROPOLITAN MUSEUM

OF

ART,

Defendant-Appellee.
-----------------------------------------------------------------------

Before:
KATZMANN, Chief Judge, LIVINGSTON and DRONEY,
Circuit Judges.
-----------------------------------------------------------------------

Plaintiff-Appellant Laurel Zuckerman appeals
from the judgment of the United States District Court
for the Southern District of New York (Preska, J.) dismissing her complaint for failure to state a claim.
Zuckerman seeks recovery of a painting by Pablo Picasso that has been in the Metropolitan Museum of Art’s
possession since 1952. The painting once belonged to

App. 2
Zuckerman’s ancestors, Paul and Alice Leffmann, who
sold it in 1938 to a private dealer to obtain funds to flee
fascist Italy after having already fled the Nazi regime
in their native Germany. The district court concluded
that Zuckerman failed to allege duress under New
York law. We do not reach the issue of whether Zuckerman properly alleged duress because we find that her
claims are barred by the doctrine of laches. Accordingly, we AFFIRM.
-----------------------------------------------------------------------

LAWRENCE M. KAYE (Ross L. Hirsch, Yael M. Weitz,
on the brief), Herrick, Feinstein LLP, New
York, NY, for Plaintiff-Appellant.
DAVID W. BOWKER, Wilmer Cutler Pickering Hale
and Dorr LLP, Washington, DC; Michael D.
Gottesman, Wilmer Cutler Pickering Hale
and Dorr LLP, New York, NY, for DefendantAppellee.
Thomas J. Hamilton, John J. Byrne, Jr., Byrne
Goldenberg & Hamilton, PLLC, for Amicus
Curiae Holocaust Art Restitution Project.
Stanley W. Levy, Benjamin G. Shatz, Diana L. Eisner, Danielle C. Newman, Manatt, Phelps &
Phillips, LLP, for Amici Curiae The 1939 Society and Bet Tzedek.
Owen C. Pell, White & Case LLP, for Amici Curiae
Natalia Indrimi, Professor Guido Alpa, and
Avv. Renzo Gattenga.
Jennifer A. Kreder, Cincinnati, OH, for Amici Curiae
B’nai B’rith International, Raoul Wallenberg

App. 3
Centre for Human Rights, Simon Wiesenthal
Center, Omer Bartov, Michael Berenbaum,
Stuart Elliot Eizenstat, Richard Falk, Eugene
Fisher, Irving Greenberg, Peter Hayes, Marcia
Sachs Littell, Hubert G. Locke, Wendy Lower,
Bruce F. Pauley, Carol Rittner, John K. Roth,
Lucille A. Roussin, William L. Shulman, Stephen Smith and Alan Steinweis.
-----------------------------------------------------------------------

KATZMANN, Chief Judge:
In the 1930s, the German government, under the
control of Adolf Hitler’s National Socialist German
Workers’ Party (the “Nazis”), launched a campaign of
oppression against German Jews and other minorities.
As part of its reign of terror, the Nazis and their affiliates forced Jews out of their homes, seized their businesses, and stripped them of their property. By the late
1930s, life in Germany for Jewish people became so
dangerous that many were forced to flee the country.
Of those who were unable to escape, most were removed from their homes, shipped to concentration
camps, and murdered.
In recent decades, with the passage of time and as
the number of survivors of Nazi brutality diminishes,
there has been a sense of urgency that some measure
of justice, albeit incomplete, be given to those victims
and their heirs. International conferences and subsequent declarations have outlined principles designed
to ensure, for example, that “legal systems or alternative processes, while taking into account the different

App. 4
legal traditions, facilitate just and fair solutions with
regard to Nazi-confiscated and looted art.” Prague Holocaust Era Assets Conference: Terezin Declaration,
Bureau of European and Eurasian Affairs, U.S. Department of State (June 30, 2009), https://2009-2017.
state.gov/p/eur/rls/or/126162.htm. What was a moral
imperative has appropriately been converted into statute, with such landmark legislation as the Holocaust
Expropriated Art Recovery Act of 2016 (the “HEAR
Act”). Pub. L. No. 114-308, 130 Stat. 1524. These efforts
are grounded in the recognition that the claims of survivors and their heirs must be given serious and sympathetic consideration. To facilitate the processing of
such claims, the HEAR Act creates a nationwide statute of limitations for bringing claims to recover artwork and other property lost during the Holocaust era.
The HEAR Act directs that every case be given individual attention, with special care afforded to the particular facts. In that effort to render justice, the law
does not eliminate equitable defenses that innocent defendants may assert, where to do otherwise would be
neither just nor fair.
Paul and Alice Leffmann (the “Leffmanns”) were
German Jews who, prior to Hitler’s rise to power, enjoyed a flourishing and prosperous life in Germany.
They had “sizeable assets,” including a manufacturing
business and multiple properties. J. App’x 33. Among
the items they owned, purchased in 1912, was The Actor, a “masterwork” painting by the famed artist Pablo
Picasso. Id. When the Leffmanns were forced to sell
their business and flee Germany in 1937, they lost

App. 5
much of their property. Once in Italy, they sold their
Picasso painting to raise money to escape Hitler’s
growing influence in Italy and relocate to Brazil.
Plaintiff-Appellant Laurel Zuckerman is the Leffmanns’ great-grandniece. Zuckerman seeks replevin of
the painting from Defendant-Appellee the Metropolitan Museum of Art (the “Met”). Zuckerman argues the
Leffmanns sold the Painting under duress and that the
sale is therefore void. The district court (Preska, J.),
concluding that Zuckerman had failed to adequately
allege duress under New York law, dismissed her complaint.
On appeal, the Met argues, inter alia, that Zuckerman’s claims are barred by the doctrine of laches and
that such a determination can be made on the pleadings. In this Court’s narrow ruling, we agree. Laches is
an equitable defense available to a defendant who can
show “that the plaintiff has inexcusably slept on [its]
rights so as to make a decree against the defendant
unfair,” and that the defendant “has been prejudiced by
the plaintiff ’s unreasonable delay in bringing the action.” Merrill Lynch Inv. Managers v. Optibase Ltd., 337
F.3d 125, 132 (2d Cir. 2003).1 Here, despite the facts
that the painting was a significant work by a celebrated artist, that it was sold for a substantial sum to
a well-known French art dealer, and that it has
been in the Met’s collection since 1952, neither the
Leffmanns nor their heirs made any demand for the
1

Unless otherwise indicated, case quotations omit all citations, internal quotation marks, footnotes, and alterations.

App. 6
painting until 2010. Such a delay is unreasonable,
and the prejudice to the Met is evident on the face of
Zuckerman’s complaint. We further conclude that the
HEAR Act does not preempt the Met’s laches defense.
Accordingly, we AFFIRM the judgment of the district
court.
BACKGROUND
The following facts are drawn from the allegations
in Plaintiff-Appellant’s Amended Complaint or are
“matters of which judicial notice may be taken.” Wilson
v. Merrill Lynch & Co., 671 F.3d 120, 123 (2d Cir. 2011).
I.

The Leffmanns

Paul Friedrich Leffmann, a German Jew from Cologne, purchased The Actor, a painting by Pablo Picasso, in 1912 (the “Painting”). Mr. Leffmann and his
wife, Alice, lent the Painting for various exhibitions
throughout Germany in the early 20th Century. The
Painting was also featured in articles, magazines, and
monographs.
After the adoption of the Nuremberg Laws in
September 1935, the Leffmanns’ lives in Germany became untenable. Stripped of the rights and privileges
of German citizenship, they were forced to sell their
property and businesses to “Aryan” corporations, receiving “nominal compensation.” J. App’x 34.
By 1937, it became clear that life in Germany for
Jews like the Leffmanns was no longer simply difficult,

App. 7
but genuinely perilous. The Leffmanns decided to
flee Germany for Italy. After paying exorbitant “flight
taxes,” the Leffmanns arrived in Italy in April 1937.
They engaged in financial transactions at a loss in order to settle in Italy. For example, the Leffmanns arranged to purchase a home for 180,000 Reichsmark
(“RM”) but pre-agreed to later sell it back to the original owners at a substantial loss. These “triangular
agreements” were common at the time, as they allowed
individuals outside of Germany to acquire RM while
simultaneously permitting German emigrants to circumvent “the ever-tightening regulations governing
the transfer of assets” outside of the country. Id. at 37.
Prior to fleeing Germany, the Leffmanns “arranged” for
the Painting, one of their few remaining assets, “to be
held in Switzerland by a non-Jewish German acquaintance.” Id. at 35.
But by early 1938, Italy was no longer a safe place
for Jews. The growing influence of Nazi Germany resulted in anti-Semitic policies—for example, in 1937,
Italy’s Ministry of the Interior produced a list of all
German refugees (most of whom were Jewish) living in
Italy—and a warm welcoming of Adolf Hitler in May
1938. The Leffmanns began to make plans to flee to
Switzerland, which required money. On April 12, 1938,
Paul Leffmann wrote to C.M. de Hauke, an art dealer
whom the U.S. State Department later identified as
dealing in Nazi-looted art, from whom Leffmann had
previously rejected an offer to sell the Painting. Leffmann now sought to revive discussions about the possibility of a sale. As matters became more perilous for

App. 8
Jews in Italy, Leffmann “continued to try to sell the
Painting through de Hauke.” Id. at 42. “Trying to raise
as much cash as possible,” and in attempt to “improve
his leverage to maximize the amount of hard currency
he could raise,” in 1938, Leffmann told de Hauke that
he had rejected a $ 12,000 offer from another dealer.
Id. at 42-43.
Shortly after writing to de Hauke stating he had
rejected an offer for $ 12,000 from another dealer, Leffmann sold the Painting in June 1938 for that very price
to the Paris art dealer Käte Perls, who was acting on
behalf of her former husband, Hugo Perls, and another
art dealer, Paul Rosenberg.2
Funded partially by their June 1938 sale of the
Painting (the “Sale”), the Leffmanns fled to Switzerland in October 1938. The record on appeal is unclear
as to how much the Leffmanns had to pay in order to
leave Italy and arrive in Switzerland, but PlaintiffAppellant alleges that Swiss authorities required immigrants to pay substantial fees and taxes in order
to enter the country. According to Plaintiff-Appellant,
“[g]iven the various payments required by Switzerland
. . . the Leffmanns depended on the $ 12,000 . . . they
received from the [S]ale” in order to survive. Id. at 46.
Their stay in Switzerland was short. Having
only been able to procure a temporary Swiss residence
visa, the Leffmanns fled to Brazil. Relocating to Brazil
was similarly expensive. The Leffmanns had to pay
2

The selling price was $13,200, but after a 10% selling commission, the Leffmanns came away with $12,000.

App. 9
unspecified bribes to acquire the necessary documentation from the Brazilian government and deposited at
least $20,000 in the Banco do Brasil. They arrived in
Rio de Janeiro on May 7, 1941. Once in Brazil, they had
to pay a “levy” of $4,641 imposed by the Brazilian government on all Germans living in the country. Id. at
46. Plaintiff-Appellant avers that the Leffmanns “depended on the $ 12,000” from the Sale for these payments. Id.
The Leffmanns lived in Rio de Janeiro for six
years. In 1947, after the war had ended, the Leffmanns
returned to Europe and settled in Zurich, Switzerland,
where they lived for the rest of their lives. Paul Leffmann died in 1956; Alice Leffmann died in 1966. While
they were still alive, the Leffmanns brought a number
of successful claims with the assistance of counsel
for Nazi-era losses, but those claims were limited
to property that was “taken in Germany” before the
Leffmanns fled Germany. Oral Argument at 25:34-58,
Zuckerman v. The Metropolitan Museum Art, No. 18634, http://www.ca2.uscourts.gov/oral_arguments.html.
The Leffmanns made no demand to reclaim the Painting.
II.

The Painting after the Leffmanns’ Sale

In 1939, Paul Rosenberg loaned the Painting to
the Museum of Modern Art (“MoMA”) in New York.
Rosenberg asked MoMA to insure the Painting for
$18,000. Sometime before October 28, 1940, Rosenberg
consigned the Painting to the M. Knoedler & Co.

App. 10
Gallery in New York. In November 1941, that gallery
sold the painting to Thelma Chrysler Foy for $22,500.
Thereafter, Foy, an arts patron noted for her gifts of
prized pieces to public institutions, donated the Painting to the Met in 1952.
Since at least 1967, when the Painting appeared
in the Met’s published catalogue of French paintings,
the Met’s published provenance of the Painting listed
Leffmann as a previous owner. Until recently, however,
the provenance incorrectly suggested that Leffmann
sold the Painting after 1912; it listed the provenance
as “P. Leffmann, Cologne (in 1912); a German private
collection (until 1938).” J. App’x 48.
III. Procedural History
On September 8, 2010, Plaintiff-Appellant, the
Leffmanns’ great-grandniece, demanded that the Met
return the Painting. The museum refused. On October
18, 2010, Zuckerman was appointed Ancillary Administratix of the estate of Alice Leffmann by the New
York Surrogate’s Court.3 On September 30, 2016, Zuckerman filed suit in the Southern District of New York,
asserting claims for conversion and replevin on the
theory that the 1938 Sale was made under duress. On
February 7, 2018, the district court dismissed Zuckerman’s claims “[f ]or failure to allege duress under New
York law.” Special App’x 3. The district court did not
3

On February 7, 2011, Zuckerman and the Met entered into
a standstill agreement tolling any statute of limitations as of that
date.

App. 11
address the Met’s contention that Zuckerman’s claims
are time-barred in New York by the statute of limitations and laches. This appeal followed.
DISCUSSION
On appeal, the Met argues, among other things,
that Zuckerman’s claims are barred by the doctrine
of laches. We agree.4 Neither the Leffmanns nor their
heirs made a demand for the Painting until 2010. This
delay was unreasonable, and it prejudiced the Met. We
further conclude that the HEAR Act, which creates a
uniform, nationwide six-year statute of limitations for
claims to recover art lost during the Holocaust era,
does not preempt the Met’s defense.
I.

Standard of Review

We review de novo a district court’s decision to
grant a motion to dismiss. See Arar v. Ashcroft, 585
F.3d 559, 567 (2d Cir. 2009). “In so doing, we accept as
true the factual allegations of the complaint, and construe all reasonable inferences that can be drawn from
the complaint in the light most favorable to the plaintiff.” Id. “To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); see
4

Below, the Met asserted its affirmative defenses—statute
of limitations and laches—but “requested that the district court
address the merits-based defenses,” which the district court did.
Appellee’s Br. 55 n.15.

App. 12
also Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007).
II.

The Doctrine of Laches

It is well established that “[w]e may . . . affirm on
any basis for which there is a record sufficient to permit conclusions of law, including grounds upon which
the district court did not rely.” Name.Space, Inc. v. Network Solutions, Inc., 202 F.3d 573, 584 (2d Cir. 2000).
The doctrine of laches “protect[s] defendants against
unreasonable, prejudicial delay in commencing suit.”
SCA Hygiene Prods. Aktiebolag v. First Quality Baby
Prods., LLC, 137 S. Ct. 954, 960 (2017). “A party asserting a laches defense must show that the plaintiff has
inexcusably slept on its rights so as to make a decree
against the defendant unfair. Laches . . . requires a
showing by the defendant that it has been prejudiced
by the plaintiff ’s unreasonable delay in bringing the
action.” Merrill Lynch Inv. Managers, 337 F.3d at 132;
see also Matter of Stockdale v. Hughes, 189 A.D.2d
1065, 1067 (N.Y. App. Div. 1993) (“It is well settled that
where neglect in promptly asserting a claim for relief
causes prejudice to one’s adversary, such neglect operates as a bar to a remedy and is a basis for asserting
the defense of laches. . . . ”).
“[M]ere lapse of time, without a showing of prejudice, will not sustain a defense of laches.” Saratoga Cty.
Chamber of Commerce v. Pataki, 100 N.Y.2d 801, 816

App. 13
(2003).5 “A defendant has been prejudiced by a delay
when the assertion of a claim available some time ago
would be inequitable in light of the delay in bringing
that claim.” Conopco Inc. v. Campbell Soup Co., 95 F.3d
187, 192 (2d Cir. 1996). Finally, laches may be decided
“as a matter of law” when “the original owner’s lack of
due diligence and prejudice to the party currently in
possession are apparent.” Matter of Peters v. Sotheby’s
Inc., 34 A.D.3d 29, 38 (N.Y. App. Div. 2006).
a. Unreasonable Delay
First, we conclude that the delay in this case was
unreasonable. The Painting is an important and wellknown work by an influential and celebrated artist.
The Leffmanns sold it for a substantial sum to a French
dealer. The Painting was then moved to the United
States, where it was acquired by a major public institution. Meanwhile, the Leffmanns were in Brazil beginning in October 1938, and Switzerland from 1947
until Alice Leffmann died in 1966.
It is evident on the face of the complaint that the
Leffmanns knew to whom they sold the Painting in
1938, and Zuckerman nowhere contends that the
Leffmanns, despite making some post-war restitution
claims, made any effort to recover the Painting. Indeed,
over seventy years passed between the sale of the
painting in 1938 and Zuckerman’s demand that the
Met return the Painting in 2010. See, e.g., Krieger v.
5

Both parties rely solely on New York law in making arguments concerning laches. Therefore, we do the same.

App. 14
Krieger, 25 N.Y.2d 364, 370 (1969) (delay of twelve
years in commencing an action for declaratory judgment that a Florida divorce decree was void was an “inordinate length of time”).
It is eminently understandable that the Leffmanns did not bring any claim for the Painting during
the course of World War II and even, perhaps, for a few
years thereafter, given their specific circumstances.
However, it is simply not plausible that the Leffmanns
and their heirs would not have been able to seek replevin of the Painting prior to 2010. As noted above,
the Leffmanns, being a financially sophisticated couple, actively and successfully pursued other claims for
Nazi-era losses. This is not a case where the identity of
the buyer was unknown to the seller or the lost property was difficult to locate. Indeed, the Painting was a
“masterwork” of Picasso, not an obscure piece of art. J.
App’x 33. Nor is this a case where the plaintiff alleges
that the buyers themselves exerted any undue or improper pressure on the sellers. The Leffmanns could
have contacted Käte Perls, the MoMA, or the Met.
Since at least 1967, “P. Leffmann” has been listed as
a prior owner of the Painting. Although that—concededly incomplete—provenance was included in the
Met’s published catalogue, none of the Leffmanns’
heirs demanded that the Painting be returned. See
Peters, 821 N.Y.S.2d at 68-69 (concluding that the presuit delay was unreasonable given that “neither the
estate nor anyone in the [original owner’s] family . . .
attempted to recover the painting from the [subsequent purchaser], even though both families lived in

App. 15
Manhattan and the painting was exhibited . . . at
prominent museums, galleries, and universities”).
b. Prejudice
While the determination of prejudice is ordinarily
fact-intensive, even at this early stage of the proceedings, based on the unusual circumstances presented by
the complaint, we conclude that the Met has been prejudiced by the more than six decades that have elapsed
since the end of World War II. This time interval has
resulted in “deceased witness[es], faded memories, . . .
and hearsay testimony of questionable value,” as well
as the likely disappearance of documentary evidence.
Solomon R. Guggenheim Found. v. Lubell, 153 A.D.2d
143, 149 (N.Y. App. Div. 1990). Assuming arguendo that
Plaintiff ’s central claim that the Sale is void because
it was made under third-party duress is cognizable under New York law, resolution of that claim would be
factually intensive and dependent on, among other
things, the knowledge and intent of the relevant parties. See Restatement (Second) of Contracts § 175(2)
(1981). No witnesses remain who could testify on behalf of the Met that the Sale was voluntary,6 or indeed
on behalf of the Plaintiff that the Painting was sold “involuntar[ily],” Kamerman v. Steinberg, 891 F.2d 424,
431 (2d Cir. 1989), because the Leffmanns “had absolutely no other alternative,” Kenneth D. Laub & Co.,
Inc. v. Domansky, 172 A.D.2d 289, 289 (N.Y. App. Div.
6

Käte Perls died in 1945. Paul Rosenberg died in 1959. Hugo
Perls died in 1977.

App. 16
1991).7 Nor are there first-hand witnesses who could
testify to facts relevant to the Met’s possible affirmative defenses, including whether Foy purchased the
Painting in good faith. On these facts, “the original
owner[s’] lack of due diligence and prejudice to the
party currently in possession are apparent,” and the
issue of laches can be decided as a matter of law. Peters,
34 A.D.3d at 38.8

7

Under New York’s “demand and refusal” rule, the statute
of limitations is not triggered “until a bona fide purchaser refuses
an owner’s demand for return of a stolen art object.” DeWeerth v.
Baldinger, 38 F.3d 1266, 1272 (2d Cir. 1994). If this rule applies
to claims for art objects sold under duress, the failure to pursue
legal proceedings related to the Painting—namely, to make a demand—also prejudiced the Met by essentially extending the New
York statute of limitations indefinitely. See Peters, 34 A.D.3d at
36. In Peters, the Appellate Division recognized that a consequence of New York’s “demand and refusal” rule is that “there is
a potential for a plaintiff to indefinitely extend the statute of limitations by simply deferring the making of the requisite demand”
and that such a consideration is relevant to a laches analysis. Id.
We do not reach the question of whether New York’s “demand and
refusal” rule, which unquestionably applies to stolen and looted
art, applies to claims of an owner demanding the return of an art
object sold under duress.
8
Peters also involved a claim to recover a Nazi-era loss. In
that case, in the early 1930s, the original owner of the painting at
issue, Professor Curt Glaser, entrusted it to his brother, Paul,
while fleeing Nazi Germany. Id. at 311. Paul, however, “apparently sold the work within the following year without first obtaining [Curt’s] consent.” Id. The painting ended up at a well-known
art gallery in Cologne, Germany. Id. That gallery sold it to a steel
magnate named Otten. Id. Otten fled Germany in 1937 but sent
the painting out of the country. Id. at 32. Soon after learning that
the painting had been sold, Curt Glaser attempted to buy it back
but was rebuffed. Id at 31. He never “report[ed] a theft and,

App. 17
c.

The HEAR Act

Zuckerman argues in the alternative that, because
her claims are timely pursuant to the applicable statute of limitations as codified by the HEAR Act, a laches
defense is unavailable in this case.
The HEAR Act addresses the “unfair impediment”
caused by “[s]tate statutes of limitations” that do not
indeed, did not regard the painting as having been stolen.” Id. at
35.
The painting eventually ended up in the United States,
where it was exhibited in several museums and universities. Id.
at 32. Decades later, the Otten family consigned the painting to
Sotheby’s which, in 2002, sold it for $1.5 million. Id. It was only
in December 2003 that the petitioner (a descendant of Glaser’s)
sought to recover the painting on the theory that it was converted
or otherwise misappropriated. Id. at 33.
The Appellate Division rejected the request for pre-action
discovery to identify the new owner of the painting. It did not
squarely hold whether the sale in that case constituted a conversion, finding instead that even “assum[ing] that the subject
[painting] was converted,” any claim for recovery was barred by
the statute of limitations and the doctrine of laches. Id. at 37.
With respect to laches, although Glaser attempted to buy back the
painting soon after his brother sold it, he never made a legal claim
for the painting. Id. at 35. Further, “[t]he delay by the Glaser family and the estate in asserting any claim of ownership during the
approximately 70-year odyssey of [the painting] prejudiced the
good-faith purchaser since none of the parties to the original sale
of the painting—Professor Glaser, Albert Otten and Paul Glaser—are alive.” Id. at 38. The Appellate Division determined that
“the original owner’s lack of due diligence and prejudice to the
party currently in possession are apparent,” such that the issue
of laches could be decided as a matter of law, even at the preaction discovery stage. Id. The Court of Appeals denied petitioner’s motion for leave to file an appeal. Matter of Peters v. Sotheby’s Inc., 8 N.Y.3d 809 (2007).

App. 18
account for “the unique and horrific circumstances of
World War II and the Holocaust.” S. REP. NO. 114-394,
at 5 (2016). The HEAR Act encourages the return of
Nazi-stolen and looted artwork to Holocaust victims,
heirs, and their survivors by preempting state statutes
of limitations and imposes instead a uniform nationwide six-year statute of limitations. Specifically, the
statute provides that “a civil claim or cause of action
against a defendant to recover any artwork or other
property that was lost during [the period between 1933
and 1945] because of Nazi persecution may be commenced not later than 6 years after the actual discovery by the claimant. . . .” HEAR Act § 5(a).9
Generally, “in [the] face of a statute of limitations
enacted by Congress, laches cannot be invoked to bar
legal relief.” Petrella v. Metro-Goldwyn-Mayer, Inc., 572
U.S. 663, 679 (2014); see also SCA Hygiene Prods., 137
S. Ct. at 960 (“The enactment of a statute of limitations
necessarily reflects a congressional decision that the
timeliness of covered claims is better judged on the basis of a generally hard and fast rule rather than the
sort of case-specific judicial determination that occurs
when a laches defense is asserted.”).
This general rule does not apply to the HEAR Act.
While the HEAR Act revives claims that would otherwise be untimely under state-based statutes of limitations, it allows defendants to assert equitable defenses
9

Amicus Holocaust Art Restitution Project (“HARP”) urges
us [sic] extend the HEAR Act beyond its enumerated scope and to
create a federal common law cause of action for replevin for “Naziconfiscated artwork.” HARP Br. 15-30. We decline to do so.

App. 19
like laches. The statute explicitly sets aside “defense[s]
at law relating to the passage of time.” HEAR Act § 5(a)
(emphasis added). It makes no mention of defenses at
equity. “[A] major departure from the long tradition of
equity practice should not be lightly implied.” eBay
Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006).
Moreover, a key Senate committee report accompanying the statute, discussed infra, unequivocally indicates
that the Act does not preclude equitable defenses.10
S. REP. NO. 114-394, at 7.
Allowing defendants to assert a laches defense, despite the introduction of a nationwide statute of limitations designed to revive Holocaust-era restitution
claims, comports with the overall legislative scheme
advanced by the HEAR Act. One of the stated purposes
of the HEAR Act is to ensure that claims to recover art
lost in the Holocaust era are “resolved in a just and fair
manner.” HEAR Act § 3(2). But the HEAR Act does not
allow potential claimants to wait indefinitely to bring
a claim.11 To do so would be neither just nor fair. At the
10

The HEAR Act applies to claims to “recover any artwork
. . . that was lost during the [Holocaust era] because of Nazi persecution.” HEAR Act § 5(a). A stated purpose of the law is to recover property “stolen or misappropriated by the Nazis.” Id.
§ 3(2). We need not and do not decide whether Zuckerman’s
claims, for recovery of art sold under duress to non-Nazi affiliates,
are within the ambit of the statute. Even if we assume arguendo
they are, her claims are nevertheless barred by the doctrine of
laches.
11
The HEAR Act’s six-year statute of limitations applies after “actual discovery” of the claim. HEAR Act § 5(a). The statute
also contains an exception to this generally applicable rule for preexisting claims: those will still be time-barred under the applicable

App. 20
very core of a successful laches defense is prejudice to
the defending party: even an unreasonable delay is not
fatal to a claim if there has been no harm to the other
party. Unlike a mechanical application of a statute of
limitations, a laches defense requires a careful analysis of the respective positions of the parties in search
of a just and fair solution.12

state statute of limitations if “(1) the claimant or a predecessorin-interest of the claimant had knowledge of [the claim] on or after January 1, 1999; and (2) not less than 6 years have passed
from the date such claimant or predecessor-in-interest acquired
such knowledge and during which time the civil claim or cause of
action was not barred by a Federal or State statute of limitations.”
Id. § 5(e). The Senate Report explained that Congress “recognizes
the importance of quieting title in property generally and the importance that claimants assert their rights in a timely fashion.”
S. REP. NO. 114-394, at 10.
12
The general principle that a codified statute of limitations
prevents a defendant from asserting a laches defense does not apply to New York’s applicable three-year statute of limitations for
recovery of a chattel, N.Y. C.P.L.R. § 214. Even when a claim is
timely pursuant to the statute of limitations, a defendant may
still assert a laches defense. See, e.g., Solomon R. Guggenheim
Found. v. Lubell, 77 N.Y.2d 311, 321 (1991) (holding that “although [defendant-]appellant’s Statute of Limitations argument
fails, [its] contention that the [plaintiff ] did not exercise reasonable diligence in locating the painting” is relevant “in the context
of [a] laches defense”). Were this not the case, plaintiffs could, as
discussed supra n.7, delay bringing their claims indefinitely without consequence. The availability of a laches defense in this context allows courts to examine whether a plaintiff has abused New
York’s idiosyncratic “demand and refusal” rule in a way that is
unfair to defendants, while keeping that rule in place. Thus, even
if Zuckerman’s claims were properly brought within the New
York statute of limitations (a question we do not reach), they can
still be barred by laches.

App. 21
Finally, the legislative history of the HEAR Act
makes clear that Congress intended that laches remains a viable defense to otherwise covered claims. An
early draft of the bill, introduced in the Senate Committee on the Judiciary on April 7, 2016, would have
explicitly swept aside a laches defense. Holocaust Expropriated Art Recovery Act, S. 2763, 114th Cong.
§ 5(c)(2)(A) (as introduced in Senate, Apr. 7, 2016
(permitting recovery “[n]otwithstanding . . . any . . . defense at law or equity relating to the passage of time
(including the doctrine of laches)” (emphasis added)).
That draft also stated that one of the purposes of the
HEAR Act was to ensure that claims for the recovery
of art lost during the Holocaust era were “not barred
by statutes of limitations and other similar legal doctrines but are resolved in a just and fair manner on the
merits.” Id. § 3 (emphasis added).
The final version of the bill, however, drops this
language. Introduced in the House on September 22,
2016, and the Senate on September 29, 2016, the final
version does not include any mention of laches or other
equitable defenses. In addressing the amendment,
which was in the nature of a substitute, the Senate Report explicitly noted that the new version “remove[d]
the reference precluding the availability of equitable
defenses and the doctrine of laches.” See S. REP. NO.
114-394, at 7. Moreover, there is no mention of “other
similar legal doctrines” in the purposes section of the
final version of the statute. The final version notes that
one of the purposes is to “ensure that claims to artwork
and other property stolen or misappropriated by the

App. 22
Nazis are not unfairly barred by statutes of limitations
but are resolved in a just and fair manner.” HEAR Act
§ 3(2). “Where Congress includes limiting language in
an earlier version of a bill but deletes it prior to enactment, it may be presumed that the limitation was
not intended.” Russello v. United States, 464 U.S. 16,
23-24 (1983); see also Simon J. Frankel & Sari Sharoni,
Navigating the Ambiguities and Uncertainties of the
Holocaust Expropriated Art Recovery Act of 2016, 42
Colum. J.L. & Arts 157, 175-76 (2019) (“[B]y removing
laches from the draft text of the statute, Congress intended laches and other equitable defenses under state
law to remain available to good faith possessors of artworks.”). The HEAR act does not prevent defendants
from asserting a laches defense. We emphasize that
each case must be assessed on its own facts: while the
laches defense succeeds here, in other cases it will fail
and not impede recovery for claims brought pursuant
to the HEAR Act.
CONCLUSION
For the reasons set forth above, we conclude that
the HEAR Act does not preempt the Met’s laches defense and that Zuckerman’s claims are barred by
laches. Accordingly, we AFFIRM the judgment of the
district court.

App. 23
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
LAUREL ZUCKERMAN, AS
ANCILLARY ADMINISTRATRIX
OF THE ESTATE OF
ALICE LEFFMANN,
Plaintiff,
v.
THE METROPOLITAN
MUSEUM OF ART,

16 Civ. 7665 (LAP)
OPINION
(Filed Feb. 7, 2018)

Defendant.
LORETTA A. PRESKA, Senior United States District
Judge:
This is an action by Laurel Zuckerman, the Ancillary Administratrix of the estate of Alice Leffmann
(the sole heir of Paul Friedrich Leffmann) (the “Leffmann estate”), to recover from New York’s Metropolitan Museum of Art (the “Museum”) a monumental
work by Pablo Picasso entitled “The Actor,” 1904-1905,
oil on canvas, 77 1/4 x 45 3/8 in., signed lower right
Picasso (“The Actor”)(the “Painting”), which was owned
by Paul Friedrich Leffmann (“Leffmann”), a German
Jew, from approximately 1912 until 1938.
In 1937, Alice and Paul Leffmann (the “Leffmanns”) fled from Germany to Italy in fear for their
lives, after losing their business, livelihood, home, and
most of their possessions due to Nazi persecution. In
1938, while living in Italy, the Leffmanns sold the

App. 24
Painting at a price well below its actual value in an
effort to gather enough money to pay for passage out
of Italy, which itself had become a perilous place for the
Leffmanns to remain. The Museum received the Painting as a donation in 1952 and has possessed it since
that time.
Plaintiff, the great-grandniece of Paul and Alice
Leffmann, received Ancillary Letters of Administration CTA for the estate of Alice Leffmann from the Surrogate’s Court of the State of New York, New York
County, on October 18, 2010. Pursuant to 28 U.S.C.
§ 1332(c)(2), because Alice Leffmann was a Swiss domiciliary, the Ancillary Administratrix is deemed to be a
citizen of Switzerland as well.
In this diversity suit, Plaintiff seeks replevin of
the Painting, $100 million in damages for conversion,
and a declaratory judgment pursuant to 28 U.S.C.
§§ 2201-2202 declaring the Leffmann estate as the sole
owner of the Painting on the grounds that good title
never passed to the Museum, inter alia, because the
1938 sale of the Painting was void for duress under
Italian law. (See Amended Compl. (“Am. Compl.”),
dated Nov. 2, 2016 [dkt. no. 8], ¶¶ 68-82.)
Defendants move to dismiss the Amended Complaint pursuant to Fed. R. Civ. P. 12(b)(6) on the following grounds: (1) lack of standing; (2) failure to allege
duress under New York or Italian law; (3) ratification
of the transaction; (4) the Museum received good title
from a good-faith purchaser; (5) Plaintiff ’s claims are
time-barred under the statute of limitation and laches.

App. 25
(See Mem. of Law in Supp. of Def. Mot. to Dismiss,
(“Def. Mot.”), dated Nov. 30, 2016 [dkt. no. 12].) For failure to allege duress under New York law, the motion to
dismiss is granted.
I.

BACKGROUND

The following facts are accepted as true for the
purposes of this motion. In 1912, the Leffmanns purchased the Painting, which was one of their most valuable acquisitions. (See Am. Compl. ¶ 9.) From 1912
until at least 1929, the Leffmanns presented the Painting at a variety of exhibitions in Germany, where
they were identified as the owners of the Painting. The
Painting was also featured in newspaper articles, magazines, and monographs. (See id.)
During this time and until the start of the Nazi
period, Paul and Alice, German Jews, lived in Cologne,
Germany. They had sizeable assets, including Atlantic
Gummiwerk, a rubber manufacturing company that
was one of the leading concerns of its kind in Europe,
which Paul co-owned with Herbert Steinberg; real
estate investment properties in Cologne (Hohenzollernring 74 and Friesenwall 77); and their home located
at Haydnstrasse 13, Köln-Lindenthal. The Leffmanns’
home included a collection of Chinese and Japanese artifacts and other artworks, including the masterwork
by Pablo Picasso that is the subject of this action. (See
id. ¶ 10.)
Beginning in 1933, the world the Leffmanns knew
in Germany began to change dramatically. Adolf Hitler

App. 26
came to power, and racist laws directed against Jews
were quickly enacted and enforced, leading to the
adoption of the Nuremberg Laws (“The Laws for the
Protection of German Blood and German Honor”) on
September 15, 1935. The Nuremberg Laws deprived all
German Jews, including Paul and Alice, of the rights
and privileges of German citizenship, ended any normal life or existence for Jews in Germany, and relegated all Jews to a marginalized existence. (See id.
¶ 11.)
The Nuremberg Laws formalized a process of exclusion of Jews from Germany’s economic and social
life. It ushered in a process of eventual total dispossession through what became known as “Aryanization” or
“Arisierung,” first through takeovers by “Aryans” of
Jewish-owned businesses and then by forcing Jews to
surrender virtually all of their assets. Through this
process all Jewish workers and managers were dismissed, and businesses and corporations belonging to
Jewish owners were forcibly transferred to non-Jewish
Germans, who “bought” them at prices officially fixed
and well below market value. As a result, the number
of Jewish-owned businesses in Germany was reduced
by approximately two-thirds from April 1933 to April
1938. By that time, the Nazi regime moved to the final
phase of dispossession, first requiring Jews to register
all of their domestic and foreign assets and then moving to possess itself of all such assets. (See id. ¶ 12.)
On September 16, 1935, the Leffmanns were
forced to sell their home to an Aryan German corporation, Rheinsiche Braunkohlensyndikats GmbH Köln.

App. 27
On December 19, 1935, Leffmann and his Jewish partner, Herbert Steinberg, were forced to transfer ownership of Atlantic Gummiwerk to Aloys Weyers (their
non-Jewish minority business partner). On July 27,
1936, the Leffmanns were forced to sell all of their real
estate investments to Feuerversicherungsgessellschaft
Rheinland AG, another Aryan German corporation. In
return, the Leffmanns had no choice but to accept only
nominal compensation. Indeed, these were not real
sales at all but essentially thefts by Nazi designees of
substantially everything the Leffmanns ever owned.
(See id. ¶ 12.) Some time prior to their departure from
Germany, Paul and Alice had arranged for The Actor to
be held in Switzerland by a non-Jewish German acquaintance, Professor Heribert Reiners. Reiners kept
The Actor in his family home in Fribourg, where it remained for its entire stay in Switzerland. For this reason only, The Actor was saved from Nazi confiscation.
(See id. ¶ 13.)
Paul and Alice, like so many other German Jews,
found themselves faced with the threat of growing violence, the risk of imprisonment, and possibly deportation and death. Thus, to avoid the loss of the property
they had left – and potentially their lives – they began
planning their flight from Germany, liquidating their
remaining assets in Germany to enable them to survive and escape. (See id. ¶ 15.) The Leffmanns fled Germany in the spring of 1937. By that time, the Nazi
regime had already put in place its ever-tightening
network of taxes, charges, and foreign exchange regulations designed to arrogate Jewish-owned assets to

App. 28
itself. Emigrants were only able to leave with a tiny
fraction of their assets. Consequently, upon their escape from the Reich, the Leffmanns had been dispossessed of most of what they once owned. (See id. ¶ 16.)
One measure by which the Reich seized assets
from fleeing Jews was the flight tax. Flight tax assessments were based on wealth tax declarations, which
referred to wealth in the previous year and which were
calculated at 25 percent of the value of the reported
assets. Payment of the flight tax did not give the emigrant any right whatsoever to transfer abroad any of
the remaining assets after payment of the tax. In fact,
the flight tax amount typically would have been considerably higher than 25 percent of the assets actually
owned at the time of emigration, as those who were
persecuted by the Nazis – such as the Leffmanns – suffered dramatic financial losses in the period leading up
to their emigration, so that their assets at the time of
emigration would have been considerably smaller than
those on which their flight tax was assessed. The payment of the flight tax was necessary to obtain the noobjection certification of the tax authorities, which in
turn was necessary to obtain an exit permit. In the case
of the Leffmanns, the flight tax was thus calculated at
25 percent of the assets they reported on their 1937 tax
form, which would have included their total assets held
in 1936. The Leffmanns paid this flight tax in the
amount of 120,000 to 125,000 Reichsmark (“RM”) in
cash. (See id. ¶ 19.)
The Leffmanns would have preferred neutral
Switzerland to Italy, as Italian Fascists were already

App. 29
in power and close relations with Nazi Germany had
begun to develop. However, a long-term stay in Switzerland would have been virtually impossible. Italy, as
opposed to Switzerland, was one of the few European
countries still allowing the immigration of German
Jews. So that is where the Leffmanns went, hoping
that Italy’s significant Jewish population would provide a safe haven from the Nazi onslaught. (See
id. ¶ 20.) In light of the ever-tightening regulations
governing the transfer of assets, emigrants sought alternative means of moving their funds abroad. One
major avenue involved creating a triangular agreement whereby individuals who owned property outside
the Reich and were in need of RM would agree to exchange the currency for property, which they would
then immediately liquidate upon arrival in the new
country. This is exactly the type of transaction the Leffmanns took part in when, in December 1936, they purchased a house and factory in Italy for an inflated price
of RM 180,000 from the heirs of Eugenio Usenbenz
from Stuttgart. The Leffmanns pre-agreed to sell the
property back to a designated Italian purchaser for lire
at a considerable loss upon their arrival in Italy a few
months later. (See id. ¶ 21.)
In April 1937 the Leffmanns crossed the border
into Italy, going first to Milan and then to Florence,
where their newly acquired house and factory were
located. (See id. ¶ 22.) Shortly after their arrival in
Italy, as pre-agreed, the Leffmanns sold their newlyacquired properties to an Italian businessman named
Gerolamo Valli, who was a business partner of the

App. 30
family from Stuttgart from whom they had originally
purchased the house and factory. They sold the properties at a considerable loss – for 456,500 Lira (or about
61,622 RM) – and rented a home in Florence at Via
Terme 29 and later at Via di San Vito 10. (See id. ¶ 23.)
The Leffmanns’ time in Italy was short-lived. It
soon became clear that the persecution from which
they had fled in Germany was encroaching upon them
in Italy as well. Moving once more meant yet again losing a significant part of their remaining financial assets. The Leffmanns had already lost two-thirds of
their initial RM investment in transfer costs, and they
now stood to lose much of their remaining cash proceeds as the tight Italian foreign exchange restrictions
forced them to seek conversion in “unofficial” ways.
Paul was in his late sixties when they arrived in Italy;
Alice was six years younger. They were living as refugees, unable to work in Italy, their prior lives destroyed
by Nazi persecution, and on the run. (See id. ¶ 24.)
In April 1936, Italy and Germany had secretly
adopted the Italo-German Police Agreement. The agreement provided for the exchange of information, documents, evidence, and identification materials by the
police with regard to all emigrants characterized as
“subversives,” which by definition included German
Jews residing in Italy. Pursuant to this agreement, the
German State Secret Police (the “Gestapo”) could compel the Italian police to interrogate, arrest and expel
any German Jewish refugee. (See id. ¶ 25.) On November 1, 1936, Mussolini publicly announced the ratification of the Rome-Berlin Axis. During the summer and

App. 31
fall of 1937, the head of the Italian Police, Arturo
Bocchini, and Mussolini accepted a proposal from the
notorious General Reinhard Heydrich, the chief of the
Security Service of the Reichsführer (the “SS”) and the
Gestapo, to assign a member of the German police to
police headquarters in various cities including Florence, where the Leffmanns resided. This facilitated the
Nazi efforts to check on “subversives.” (See id. ¶ 26.).
By the fall of 1937, anti-Semitism in Italy dashed
any illusions about a longer stay in Italy for the Leffmanns. That fall, Germany and Italy began to prepare
for Hitler’s visit to Italy. In October, the Ministry of the
Interior created lists of all German refugees residing
in Italy’s various provinces. The lists were intended to
draw clear distinctions between “those who supported
the Nazi regime” and “anti-Nazi refugees” or Jews.
This was the first time that the Italian Government
had explicitly associated all German Jews with antiNazi Germans. This marked a turning point in the
1936 Italo-German Police Agreement, with the Gestapo requesting these lists so that it could monitor
“subversives” in anticipation of Hitler’s visit. From the
beginning of January 1938 until Hitler’s visit in May,
the Gestapo received a total of 599 lists from the police
throughout Italy’s provinces. (See id. ¶ 27.)
As the situation grew increasingly desperate for
Jews living in Italy, it became clear that it would only
be a matter of time before the Fascist regime’s treatment of Jews would mimic that of Hitler’s Nazis. Paul
and Alice had to make plans to leave, and this would
require money. They wanted to go to Switzerland to

App. 32
escape the horrors of Nazism and Fascism and find
a truly safe haven. But, as was well known at the
time, passage into Switzerland did not come easily or
cheaply. Given the urgency of their situation, Paul began to explore the possibility of selling his masterpiece,
The Actor, with dealers in Paris. The events following
the Austrian Anschluss and Hitler’s visit to Italy in
May 1938 confirmed that they would have had no
choice but to turn whatever assets they still controlled
into cash. (See id. ¶ 28.)
Meanwhile, conditions for Jews in Italy grew
worse. On February 17, 1938, every newspaper in Italy
published a Government announcement (“Diplomatic
Notice Number 18,” issued on February 16), which
stated that “[t]he Fascist Government reserves to itself
the right to keep under close observation the activity
of Jews newly arrived in our country.” (See id. ¶ 29.) In
March 1938, SS General Heydrich traveled to Rome to
meet with the head of the Italian Police, Bocchini,
in order to plan for Hitler’s visit. Nazi police officials
were posted at thirteen Police Headquarters in border
towns, ports, and large cities to conduct interrogations
and house searches. These officials, dressed in Nazi
uniforms, arrived on April 10-11, 1938. Id. Meanwhile, on March 18, 1938, the Italian Ministry of the
Interior informed prefects in border provinces that “exAustrian Jewish subjects” should be denied entry into
Italy. (See id. ¶ 30.)
In April 1938, in the face of the growing Nazi persecution spreading across Europe and into Italy, Paul
escalated his efforts to liquidate The Actor. (See id.

App. 33
¶ 32.) In September 1936, after they had been forced
by the Nazis to part with nearly everything they
owned, the Leffmanns had rejected an offer to sell The
Actor from the notorious art dealer, C.M. de Hauke of
Jacques Seligmann & Co. (whom the U.S. State Department later identified as a trafficker in Nazi-looted
art). (See id. ¶ 32.) Nearly two years later, on April 12,
1938, the Leffmanns, in an even more desperate state,
reached out to de Hauke asking him if he would be interested in purchasing the Painting. (See id.)
Just days after writing to de Hauke, the situation
in Italy grew even worse. From April 24-26, General
Heydrich, SS Reichsführer Heinrich Himmler (whom
Hitler later entrusted with the planning and implementation of the “Final Solution”) and SS General
Josef “Sepp” Dietrich, the commander of Hitler’s personal army, went to Rome to complete preparations for
Hitler’s visit. For three weeks in April and May 1938,
there were over 120 Gestapo and SS officers in Italy –
primarily in Florence, Rome, and Naples. The Gestapo
officials and Italian police continued investigations
and surveillance of “suspicious persons” until the end
of Hitler’s visit, arresting at least 80 people in Florence. The Italian police carried out the arrests. Many
German Jewish residents fled in anticipation of and as
a result of these arrests. (See id. ¶ 34.)
On May 3, Adolf Hitler arrived in Italy for his official state visit. The Italian people turned out in the
tens of thousands to greet the German leader. From
May 3 through May 9, 1938, Hitler traveled to Rome,
Naples, and Florence. The streets of these Italian cities

App. 34
were covered in thousands of Nazi swastika flags,
which flew alongside Italy’s tricolor. Flowerbeds were
decorated in the shape of swastikas and photographs
of Mussolini and Hitler were made into postcards and
displayed in shop windows. Parades and military displays in honor of Hitler, attended by thousands of Italians, young and old, took place in every city he visited.
In Florence, the last city visited by Hitler on May 9th,
city officials made an official postmark that commemorated Hitler’s visit. Mail sent during that time was
stamped “1938 II Führer a Firenze” and decorated
with swastikas. (See id. ¶ 35.)
For the Leffmanns, the time to flee Italy was
quickly approaching, so they continued to try to sell the
Painting through de Hauke. Trying to raise as much
cash as possible for the flight, the Leffmanns responded
to a letter from de Hauke, telling him that they had
already rejected an offer obtained through another
Paris dealer, Käte Perls, for U.S. $12,000 (net of commission). It is clear from the letter that the Leffmanns
were desperately trying to improve their leverage to
maximize the amount of hard currency they could
raise. (See id. ¶ 36.)
Violence was increasing, and the persecution of
Jews was on the rise. Foreign Jews in Italy risked arrest and had reason to fear possible deportation and
death. The Leffmanns were in fear of their liberty and
their lives. Just days after telling de Hauke that they
had rejected Mrs. Perls’ low offer, in late June 1938, the
Leffmanns sold the Painting at the very price they told
Perls and de Hauke they would not consider. They

App. 35
finally accepted Käte Perls’ offer of U.S. $13,200 (U.S.
$12,000 after a standard ten percent selling commission), who was acting on behalf of her ex-husband,
Hugo Perls, also an art dealer, and art dealer Paul Rosenberg, with whom Perls was buying the Painting. (See
id. ¶ 37.)
On July 26, 1938, Frank Perls, Käte’s son (who was
also a dealer) wrote to automobile titan Walter P.
Chrysler Jr., asking if he would be interested in purchasing The Actor. Having just acquired a Picasso masterpiece from a German Jew on the run from Nazi
Germany living in Fascist Italy for a low price that reflected the seller’s desperate circumstances and the
extraordinary prevailing conditions, Frank Perls misrepresented to Chrysler that the Painting was purchased by Mrs. Perls from “an Italian collector.” (See id.
¶ 38.)
In July 1938, the Leffmanns submitted their “Directory of Jewish Assets” forms detailing all of their assets, which the Reich required all Jews (even those
living abroad) to complete. The penalties for failing to
comply with this requirement included fines, incarceration, prison, and seizure of assets. (See id. ¶ 39.)
Meanwhile, the plight of the Jews in Italy worsened. In
August 1938, enrollment of foreign Jews in Italian
schools was prohibited. A Jewish census, in which the
Leffmanns were forced to participate, was conducted
in preparation for the Italian racial laws, which were
soon to follow. A legal definition of what constituted
a “Jew” was considered, and discriminatory legislation was drafted. The Italian government increased

App. 36
surveillance of Jews because of the fear that Jews
would transfer their assets out of Italy or emigrate and
take their assets with them. A series of anti-Semitic
publications was released, among them the infamous
“Manifesto degli scienziati razzisti” (“Manifesto of the
Racial Scientists”), which attempted to provide a scientific justification for the coming racial laws, and the
venomous magazine, “La difesa della razza” (“The Defense of the Race”). In addition, a number of regional
newspapers published lists of many of the names of
Jewish families residing in Florence. (See id. ¶ 40.)
On September 7, 1938, the first anti-Semitic racial
laws were introduced in Italy, including “Royal Enforceable Decree Number 1381,” which was approved
by the Council of Ministers on September 1st and was
published in daily newspapers on September 2nd.
With this Enforceable Decree, all “alien Jews” were forbidden from residing in Italy. All Jews who arrived in
Italy after January 1, 1919 had to leave Italy within
six months (i.e., by March 12, 1939) or face forcible expulsion. Bank accounts opened in Italy by foreign Jews
were immediately blocked. (See id. ¶ 41.)
The Leffmanns were desperate and prepared for
immediate departure. Switzerland, which already had
strict border controls, became even more difficult to enter beginning in 1938. Following the incorporation of
Austria into the Reich, Switzerland imposed visa requirements on holders of Austrian passports on March
28, 1938. In April, the Swiss government began negotiations with the Germans regarding the introduction
of the notorious “J” stamp. On August 18-19, 1938 the

App. 37
Swiss decided to reject all refugees without a visa. On
October 4, 1938, with an agreement reached on the
adoption of the “J” stamp, they imposed visa requirements on German “non-Aryans.” Receiving asylum was
virtually impossible, and German and Austrian Jews
could only enter Switzerland with a temporary residence permit. Given the strict controls and asset requirements imposed by the Swiss government, these
permits were not easy to obtain. (See id. ¶ 42.)
Sometime before September 10, 1938, however, the
Leffmanns managed to obtain a Toleranzbewilligung
(a tolerance or temporary residence visa) from Switzerland, valid from September 10, 1938 to September 10,
1941. In October 1938, just days after the enactment of
the racial laws expelling them from Italy, the Leffmanns fled yet again, this time to Switzerland, where
they were allowed to stay only temporarily. (See id.
¶ 43.) By the time the Leffmanns arrived in Switzerland, the Anschluss and other persecutory events had
triggered a rising wave of flight from the Reich. Consequently, Swiss authorities required emigrants to pay
substantial sums through a complex system of taxes
and “deposits” (of which the emigrant had no expectation of recovery). (See id. ¶ 44.)
In October 1938, all German Jews were required
to obtain a new passport issued by the German government stamped with the letter “J” for Jude, which definitively identified them as being Jewish. As German
citizens who required a passport to continue their
flight, the Leffmanns had no choice but to comply. (See
id. ¶ 45.) The Leffmanns temporarily resided in Bern,

App. 38
Switzerland, but, unable to stay, prepared to flee yet
again, this time to Brazil. In addition to bribes that
were typically required to obtain necessary documentation, Brazil would only provide visas for Jews who
could transfer more than 400 contos (USD $20,000) to
the Banco do Brasil. On May 7, 1941, the Leffmanns,
still on the run, immigrated to Rio de Janeiro, Brazil,
where they lived for the next six years. But even in
Brazil, they could not escape the effects of the ongoing
war. All German residents living there, including the
Leffmanns, were forced to pay a levy imposed by the
Brazilian government of 20,000 Swiss Francs (“SF”)
(or about U.S. $4,641). (See id. ¶ 46.)
Given the various payments required by Switzerland, as well as those that the Leffmanns would need
to enter Brazil, the Leffmanns depended on the $12,000
(or approximately SF 52,440 in 1938) they received
from the sale of The Actor, as it constituted the majority of the Leffmanns’ available resources in June 1938.
Had the Leffmanns not fled for Brazil when they did,
they likely would have suffered a much more tragic
fate at the hands of the Nazi regime and its allies. (See
id. ¶ 47.)
The Leffmanns were not able to return to Europe
until after the War had ended. In 1947, they settled in
Zurich, Switzerland. (See id. ¶ 48.) Paul Leffmann died
on May 4, 1956 in Zurich, Switzerland at the age of 86.
(See id. ¶ 49.) He left his entire estate to his wife, Alice
Brandenstein Leffmann. (See id. ¶ 49.) Alice Leffmann
died on June 25, 1966 in Zurich, Switzerland at the age

App. 39
of 88. She left her entire estate to 12 heirs (all relatives
or friends). (See id. ¶ 50.)
The immediate history of the Painting after Perls
and Rosenberg purchased it in June of 1938 is unclear,
but it is known that after the purchase, art dealer Paul
Rosenberg loaned the Painting to the Museum of Modern Art (“MoMA”) in New York in 1939. In the paperwork documenting the loan, Rosenberg requested that
MoMA insure the Painting for $18,000 (a difference of
$6,000, or a 50 percent increase over what had been
paid to the Leffmanns less than a year earlier). (See id.
¶ 52.) Sometime prior to October 28, 1940, the Painting
was consigned for sale by Rosenberg to the well-known
M. Knoedler & Co. Gallery in New York, New York. On
November 14, 1941, M. Knoedler & Co. sold the Painting to Thelma Chrysler Foy (“Foy”) for $22,500 (a difference of U.S. $9,300, or a 70 percent increase from
the price paid to the Leffmanns). (See id. ¶ 53.) Thelma
Chrysler Foy donated the Painting to the Museum in
1952, where it remains today. The Museum accepted
this donation. (See id. ¶ 54.)
The Museum’s published provenance for the
Painting was manifestly erroneous when it first appeared in the Museum’s catalogue of French Paintings
in 1967. Instead of saying that the Leffmanns owned
the Painting from 1912 until 1938, it read as follows:
“P. Leffmann, Cologne (in 1912); a German private collection (until 1938) . . . ,” thus indicating that the Leffmanns no longer owned the Painting in the years
leading up to its sale in 1938. (See id. ¶ 57.) This remained the official Museum provenance for the Painting

App. 40
for the next forty-five years, including when it was included on the Museum’s website as part of the “Provenance Research Project,” which is a section of the
website that includes all artworks in the Museum’s collection that have an incomplete Nazi-era provenance.
(See id. ¶ 58.) From 1967 to 2010, the provenance listing was changed numerous times. It continued to state,
however, that the Painting was part of a German private collection and not that the Leffmanns owned it
continuously from 1912 until 1938. (See id. ¶ 59.)
In connection with a major exhibition of the Museum’s Picasso holdings in 2010 entitled, “Picasso in
the Metropolitan Museum of Art,” the Museum changed
the provenance yet again. (See id. ¶ 60.) Despite purported careful examination, as of 2010, the provenance
of the Painting continued erroneously to list the “private collection” subsequent to the Leffmanns’ listing.
In October 2011, only after extensive correspondence
with Plaintiff, the Museum revised its provenance yet
again. The revised provenance omitted the reference to
the private German collector who had purportedly
owned The Actor from 1913-1938 and finally acknowledged the Leffmanns’ ownership through 1938 and
their transfer of it during the Nazi era. (See id. ¶ 63.)
On or about August 26, 2010, Nicholas John Day,
the Executor named in the will of Alice Anna Berta
Brandenstein, a legatee named in the will of Alice Leffmann, submitted a Petition for Ancillary Probate for
the estate of Alice Leffmann in the Surrogate’s Court
of the State of New York, New York County (“Surrogate’s Court”), authorizing Laurel Zuckerman to

App. 41
receive Ancillary Letters of Administration CTA of
the estate. On October 18, 2010, Laurel Zuckerman received Ancillary Letters of Administration CTA and
was named Ancillary Administratrix by the Surrogate’s Court of the State of New York, New York
County. (See id. ¶ 51.)
On September 8, 2010, Plaintiff ’s attorneys, Herrick Feinstein LLP, wrote to the General Counsel of the
Museum, demanding the return of the Painting. The
Museum refused to deliver the Painting to Plaintiff.
The Painting remains in the possession of the Museum. (See id. ¶ 66.) On February 7, 2011, the parties
entered into a standstill agreement tolling any statute
of limitations as of February 7, 2011. Such agreement
was thereafter amended several times to terminate
on September 30, 2016. The final amendment of the
standstill agreement terminated on September 30,
2016. (See id. ¶ 67.)
II.

LEGAL STANDARD

In considering a motion to dismiss pursuant to
Fed. R. Civ. P. 12(b)(6), a court must “accept the material facts alleged in the complaint as true and construe
all reasonable inferences in the plaintiff ’s favor.”
Phelps v. Kapnolas, 308 F.3d 180, 184 (2d Cir. 2002) (citation and internal quotation marks omitted). Though
a court must accept all factual allegations as true, it
gives no effect to “legal conclusions couched as factual
allegations.” Stadnick v. Vivint Solar, Inc., 861 F.3d 31,
35 (2d Cir. 2017) (quoting Starr v. Sony BMG Music

App. 42
Entm’t, 592 F.3d 314, 321 (2d Cir. 2010)). “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’ ” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)). “A claim has facial plausibility when the plaintiff pleads factual content that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678. This “plausibility standard is not
akin to a ‘probability requirement,’ but it asks for more
than a sheer possibility that a defendant has acted unlawfully.” Id. (citations omitted). Deciding whether a
complaint states a claim upon which relief can be
granted is “a context-specific task that requires the reviewing court to draw on its judicial experience and
common sense.” Rahman v. Schriro, 22 F. Supp. 3d 305,
310 (S.D.N.Y. 2014) (quoting Iqbal, 556 U.S. at 679).
III. DISCUSSION
Plaintiff asserts claims for replevin and conversion and seeks a declaration that the Leffmann estate
is the rightful owner of the Painting and that, as Ancillary Administratrix of the Leffmann estate, she is
entitled to immediate possession of the Painting. (Am.
Compl. ¶¶ 68-82.) In doing so she relies on the Italian
law principles of (1) duress and (2) public order and
public morals. (See Pl. Mem. of Law in Opp. to Def. Mot.
to Dismiss, (“Pl. Opp.”), dated Jan. 20, 2017 [dkt. No.
17].)

App. 43
The Museum moves to dismiss, arguing that under either Italian law or New York law, Plaintiff has
not adequately alleged duress and that, even under
Italian law, the Leffmanns’ sale of the Painting did not
violate public order or public morals. (See Reply Br. in
Further Supp. of Def. Mot. to Dismiss, (“Def. Rep.”),
dated Feb. 27, 2016 [docketed Feb. 27, 2017] [dkt. no.
21].) The Museum also argues other bases for dismissal, including ratification, statute of limitations, and
latches. (Def. Mot. at 13-19.)
A. Standing
In its moving papers, the Museum argued that
Plaintiff lacks standing to bring this suit on the
grounds that the New York County Surrogate’s Court
Decree that appointed Plaintiff as Ancillary Administratrix of the Leffmann estate was defective and
should be vacated. (See Def. Mot. at 7-9.) At oral argument, however, after additional developments in the
Surrogate’s Court, the Museum conceded that Plaintiff
has standing. Accordingly, that portion of the Museum’s motion based on lack of standing is denied as
moot.
B. Choice-of-Law
Jurisdiction in this case is predicated on diversity
of citizenship, and therefore New York’s choice-of-law
rules apply. Bakalar v. Vavra, 619 F.3d 136, 139 (2d Cir.
2010) (citing Klaxon Co. v. Stentor Elec. Mfg. Co., 313
U.S. 487, 496 (1941)). “Under New York choice-of-law

App. 44
rules, the first inquiry in a case presenting a potential
choice-of-law issue is whether there is an actual conflict of laws on the issues presented.” Fed. Ins. Co. v.
Am. Home Assurance Co., 639 F.3d 557, 566 (2d Cir.
2011) (citation omitted). The court will not engage in
the choice-of-law analysis if there is no actual conflict.
See id. However, where an actual conflict exists, New
York courts give controlling effect to the law of the jurisdiction having “the greatest concern with the specific issue raised.” Loebig v. Larucci, 572 F.2d 81, 84 (2d
Cir. 1978).
Here, the Court turns to the threshold question of
whether there is a difference between the laws of Italy
and New York upon which the outcome of the case is
dependent. Bakalar, 619 F.3d at 139. In determining
the law of a foreign country:
Rule 44.1 of the Federal Rules of Civil Procedure allows a court to determine the content
of foreign law based on ‘any relevant material
or source . . . whether or not submitted by a
party.’ However, it does not require a court ‘to
undertake its own analysis to determine’ the
content of foreign law.
SHLD, LLC v. Hall, No. 15 CIV. 6225 (LLS), 2017 WL
1428864, at *4 (S.D.N.Y. Apr. 20, 2017) (quoting In re
Nigeria Charter Flights Contract Litig., 520 F. Supp. 2d
447, 458 (E.D.N.Y. 2007). Additionally, “[t]he Court’s
determination must be treated as a ruling on a question of law.” Ennio Morricone Music Inc. v. Bixio Music
Grp. Ltd., No. 16-CV-8475 (KBF), 2017 WL 5990130, at
*3 (S.D.N.Y. Oct. 6, 2017).

App. 45
Rule 44.1 therefore “has two purposes: (1) to make
a court’s determination of foreign law a matter of law
rather than fact, and (2) to relax the evidentiary standard and to create a uniform procedure for interpreting
foreign law.” In re Vitamin C Antitrust Litig., 837 F.3d
175, 187 (2d Cir. 2016); see also Rationis Enters. Inc. v.
Hyundai Mipo Dockyard Co., 426 F.3d 580, 585 (2d Cir.
2005).
In support of their respective positions, both parties submitted expert reports regarding Italian law.
Plaintiff ’s expert is Professor Marco Frigessi. (See
Decl. of Prof. Marco Frigessi Di Rattalma (“Frig.”) [dkt.
no. 18].) Defendant’s expert is Professor Pietro Trimarchi. (See Decl. of David W. Bowker Ex. 1, “Decl. of
Prof. Pietro Trimarchi,” (“Tri.”) [dkt. no. 22-1].) After
examining both parties’ declarations, the Court concludes that insofar as it impacts the outcome of this
case, New York and Italian law do not differ on the issue of duress. Because Plaintiff argues that there is an
outcome-determinative difference between New York
and Italian law, the Court will also undertake a choiceof-law analysis.
i. Italian Law
The Court credits the expert opinion of Professor
Trimarchi in finding that Italian law, like New York
law, requires a party alleging duress to plead and prove
“a specific and concrete threat of harm” that “induced
the victim to enter into a contract that would not otherwise have been concluded.” (See Tri. ¶¶ 13, 26.) Both

App. 46
Plaintiff ’s and Defendant’s experts rely on the 1865
Italian Civil Code (“Code”) as the legal authority for
duress under Italian law, which was in force at the time
of the 1938 transaction and was replaced in 1942 by a
new Civil Code with “[s]imilar provisions.” (See Frig.
¶¶ 6-8, 15-18, 41; See Tri. ¶¶ 8, 10.) In defining duress,
Article 1108 of the Code provides that “consent is not
valid if it was given by mistake, extorted by duress (‘violenza’), or obtained by fraud.” (Tri. ¶ 11; See Frig.
¶ 41.) “In this provision the word Violenza (i.e. ‘duress’)
means the threat of unjust harm made in order to
force a person to enter into a contract, which otherwise would not have been concluded.” (Tri. ¶ 12.) The
“threat of unjust harm” includes “the fear induced by a
specific and concrete threat of harm, purposefully presented by its author to extort the victim’s consent.”
(Tri. ¶ 13) (emphasis added). A general state of fear
arising from political circumstances is not sufficient to
allege duress:
For duress to have legal significance as a vitiation of consent that invalidates a legal transaction, it must be a determinative cause of the
transaction.
The generic indiscriminate persecutions
of fascism . . . do not constitute legally significant duress pursuant to Art. 1108 of the 1865
Civil Code . . . when there is no specific, direct
relationship between these persecutions and
the legal transaction alleged to have been carried out under this act of duress.

App. 47
(Tri. Ex. 3) (translating Corte di Appello, 9 aprile-31
agosto 1953, Rassegna Mensile Dell’Avvocatura Dello
Stato 1954, IV, sez. I civ., 25 et seq. (It.)).
Here, Plaintiff ’s allegation that Leffmann “was
forced by the circumstances in Fascist Italy to sell” the
Painting in 1938 is insufficient to plead duress. (See
Am. Compl. ¶ 9) (emphasis added). Plaintiff ’s allegation does not demonstrate a “specific and concrete
threat of harm” beyond the “generic indiscriminate
persecutions of fascism” and thus fails to meet the
pleading standard for duress under Italian law. (Tri.
Ex. 3.)
Plaintiff further alleges that the 1938 transaction
is void under Italian principles of “public order” and
“public morals.” (See Pl. Opp. 22; see Frig. ¶¶ 15-38.)
The Court disagrees and credits Professor Trimarchi’s
definition: “Public order and public morals are subsidiary rules aimed at completing the legal system with
rules to be applied to prevent illicitness in situations
not expressly regulated by code or statute.” (See Tri.
¶ 62(c).)
Specifically, contracts violate public morals or public order “when the performance that is bargained for
is illicit (e.g. hiring someone to commit a crime).” (See
Tri. ¶ 52.) Here, the performance bargained for was the
sale of a painting in exchange for U.S. $12,000 (net of
commission). (See Am. Compl. ¶ 36.) The contract did
not seek an illicit objective and therefore is not akin to
a contract deemed void on the grounds of public morals
or public order such as one where “spouses agreed to

App. 48
release themselves from the civil obligation of fidelity.”
(See Tri. ¶ 52 n.30.)
Plaintiff further argues, citing principles of public
morals and public order, that the Italian legal system
“would not recognize the validity of a contract” where,
as here, the “circumstances involve the Holocaust – a
context not lost on the Italian legal system which developed a specific set of post-War rules providing for
particularly strong protections of Jewish individuals
persecuted by the anti-Semitic laws.” (Pl. Opp. 22-23.)
Plaintiff ’s expert cites to one such “post-War rule,” Article 19 (“Article 19”) of legislative decree lieutenant
April 12, 1945, no. 222. (See Frig. ¶ 35 n.14) (citing Decreto Legge 12 aprile 1945, n.222, G.U. May 22, 1945,
n.61 (It.)). Article 19 states that “rescission is allowed”
for “sales contracts stipulated by people affected by the
racial provisions after October 6, 1938 – the date when
the directives on racial matters issued by the former
regime were announced” and only where the claimant
could prove a certain level of damages. (See id.) (emphasis added); (see also Tri. ¶ 47.) The transaction at
issue took place in June, 1938, failing to meet the “after
October 6, 1938” criteria established under Article 19.
(See Am. Compl. ¶ 62.) Therefore, under Article 19,
Plaintiff ’s claim for “rescission” would fail.
Even Plaintiff ’s expert acknowledges that under
the Italian legal system, “[t]he principle of the voidness
of contracts which are immoral or contrary to public order performs the role of a subsidiary rule with
respect to the prohibitions established by the Civil
Code.” (Frig. ¶ 19) (citing Francesco Ferrara, Teoria del

App. 49
negozio illecito nel diritto civile italiano, 1902, Milano
page 296) (emphasis added). Professor Frigessi, like
Professor Trimarchi, states that the passage of Article
19 “shows that the Italian legal system developed a
specific policy and specific rules protecting Jewish individuals affected by anti-Semitic laws who sold goods
under such dire circumstances.” (Frig. ¶ 35; Tri. ¶¶ 5762.) Therefore, by admission of Plaintiff ’s expert, the
Italian legal system considered the issue of Jewish individuals as weak contracting parties during the Holocaust and declined to extend the protections of Article
19 to transactions prior to October 6, 1938. Id. Because
“public order performs the role of a subsidiary rule,”
this Court declines to extend its boundaries under Italian law to encompass a transaction that the Italian legal system opted not to include under Article 19. (Frig.
¶ 19; Tri. ¶¶ 57-59) (emphasis added). Accordingly, the
1938 transaction would not be subject to rescission under Italian law.
ii. New York Law
Under New York law, “to void a contract on the
ground of economic duress,” Plaintiff must plead and
show that the 1938 transaction “was procured by
means of (1) a wrongful threat that (2) precluded the
exercise of its free will.” Interpharm, Inc. v. Wells Fargo
Bank, Nat. Ass’n, 655 F.3d 136, 142 (2d Cir. 2011); see
Stewart M. Muller Constr. Co. v. N.Y. Tel. Co., 40 N.Y.2d
955, 956 (1976); see also Kramer v. Vendome Group
LLC, 11 Civ. 5245, 2012 WL 4841310, at *6 (S.D.N.Y.
Oct. 4, 2012) (“To prove economic duress, a party

App. 50
seeking to void a contract must plausibly plead that
the release in question was procured by (1) a threat,
(2) which was unlawfully made, and (3) caused involuntary acceptance of contract terms, (4) because the
circumstances permitted no other alternative.”).
In characterizing a “wrongful threat,” New York
“law demands threatening conduct that is wrongful,
i.e., outside a party’s legal rights.” Interpharm, 655
F.3d at 142 (internal quotation marks and citation
omitted). “Critically,” under New York law, the defendant must have caused the duress. See Mandavia v. Columbia Univ., 912 F. Supp. 2d 119, 127-28 (S.D.N.Y.
2012), aff ’d, 556 F. App’x 56 (2d Cir. 2014) (quoting
Kramer, 2012 WL 4841310, at *6) (stating that “to
prove duress, a plaintiff must demonstrate that the
difficult circumstances” or wrongful threat “she faces
are a result of the defendant’s actions . . . to constitute
duress, a defendant’s actions must have amounted to
threats that preclude[d] the exercise of [a plaintiff ’s]
free will”).
Moreover, courts have noted that “an element of
economic duress is . . . present when many contracts
are formed.” VKK Corp. v. Nat’l Football League, 244
F.3d 114, 123 (2d Cir. 2001). For that reason, a party
seeking to void a contract on the basis of economic
duress bears a heavy burden. Davis & Assocs., Inc. v.
Health Mgmt. Serv., Inc., 168 F. Supp. 2d 109, 114
(S.D.N.Y. 2001); Bus. Incentives Co. v. Sony Corp. of
Am., 397 F. Supp. 63, 69 (S.D.N.Y. 1975) (“Mere hard
bargaining positions, if lawful, and the press of financial circumstances, not caused by the defendant, will

App. 51
not be deemed duress.”) (emphasis added). Additionally,
pressure exerted from general economic conditions is
not enough to allege duress. See Mfrs. Hanover Tr. Co.
v. Jayhawk Assocs., 766 F. Supp. 124, 128 (S.D.N.Y.
1991) (rejecting a defense of economic duress in connection with a refinancing agreement where defendants
claimed to be under “economic pressure in general” but
failed to show any duress at the hands of plaintiff ).
Here, first, Plaintiff is unable to plead “a wrongful
threat” by the Defendant Museum or the counterparties to the 1938 transaction. Specifically, Plaintiff does
not plead that Käte Perls, Hugo Perls or Paul Rosenberg, respectively the negotiator and purchasers on the
other side of the Leffmann transaction, or the Museum
used “wrongful” or “threatening conduct . . . outside
[their] legal rights” in effectuating the 1938 sale. Rather, Plaintiff states that “but for the Nazi and Fascist
persecution to which [the Leffmanns] had been . . .
subjected,” they “would not have disposed of this seminal work at that time.” (Am. Compl. ¶ 3.) Effectively,
Plaintiff claims that the “circumstances in Fascist Italy,”
not the counterparties to the 1938 transaction or the
Museum, forced the Leffmanns to sell the Painting under duress. (Am. Compl. ¶¶ 3, 9.) However, the 1938
transaction occurred between private individuals, not
at the command of the Fascist or Nazi governments. As
in Bakalar, “there is no . . . evidence that the Nazis ever
possessed the [Painting], and therefore . . . this Court
cannot infer duress based on Nazi seizure.” Bakalar v.
Vavra, 819 F. Supp. 2d 293, 300 (S.D.N.Y. 2011), aff ’d,
500 F. App’x 6 (2d Cir. 2012), cert. denied sub nom.

App. 52
Vavra v. Bakalar, 569 U.S. 968 (2013). Thus, although
the Leffmanns felt economic pressure during the undeniably horrific circumstances of the Nazi and Fascist
regimes, that pressure, when not caused by the counterparties to the transaction (or the Defendant) where
the duress is alleged, is insufficient to prove duress
with respect to the transaction. Id.
Second, Plaintiff fails to plead that the Leffmanns
entered into the 1938 transaction by force that “preclude[ed] the exercise of [their] free will.” Orix Credit
All., Inc. v. Bell Realty, Inc., No. 93 CIV. 4949, 1995 WL
505891, at *4 (S.D.N.Y. Aug. 23, 1995) (quoting Austin
Instrument v. Loral Corp., 324 N.Y.S.2d 22, 25 (N.Y. Ct.
of App. 1971)). Rather, Paul Leffmann exercised his
free will in “explor[ing] the possibility of selling his
masterpiece, The Actor, with dealers in Paris.” (See Am.
Compl. ¶ 28.) The Leffmanns took nearly two years
from the time they received an initial offer to sell the
Painting in September, 1936, until they negotiated for
its sale in June, 1938. (See Am. Compl. ¶¶ 28, 32-33,
36.) In the interim, the Painting was in Switzerland for
safekeeping. (See Am. Compl. ¶ 14.)
Additionally, the Leffmanns negotiated with several parties prior to the 1938 transaction, rejected offers from other dealers, and attempted to “improve
[their] leverage to maximize” the sale price before ultimately accepting an offer from Perls and Rosenberg,
the proceeds of which the Leffmanns retained and used
in later years. (See Am. Compl. ¶¶ 28, 32-33, 36-37, 47.)
Each transaction occurred between private individuals, not at the behest of Nazi or Fascist officials. (See

App. 53
Am. Compl. ¶¶ 28, 32, 33, 36.) Accordingly, these allegations are fatal to a claim of duress as Plaintiff is unable to show “a wrongful threat by the other party
which precluded the exercise of [Paul’s] free will in
making the contract at issue.” Mfrs. Hanover Tr. Co. v.
Jayhawk Assocs., 766 F. Supp. 124, 128 (S.D.N.Y. 1991)
(quoting 805 Third Ave. Co. v. M.W. Realty Assoc., 58
N.Y.2d 447, 451 (N.Y. 1983)) (internal quotation marks
omitted) (emphasis added).
Third, Plaintiff fails to plead facts demonstrating
that the Leffmanns had “no other alternative” than to
engage in the 1938 transaction. Kramer v. Vendome
Grp. LLC, No. 11 CIV. 5245, 2012 WL 4841310, at *6
(S.D.N.Y. Oct. 4, 2012). Plaintiff ’s assertion that the
Leffmanns were “forced by the circumstances in Fascist Italy to sell [the Painting] under duress in 1938”
conflates the Leffmanns’ need “to raise as much cash
as possible” with the Leffmanns having “no other alternative.” (See Am. Compl. ¶¶ 9, 36.) The fact that the
Leffmanns spent several years looking to sell the
Painting, rejected other offers, and had additional assets including properties in Italy that they sold to an
Italian businessman in 1937, suggests that they had
other financial alternatives. (See Am. Compl. ¶¶ 9, 28,
32-33, 36.) Accordingly, the Court finds that there is no
outcome-determinative difference between Italian law
and New York law; Plaintiff ’s claims fail under both.

App. 54
iii. New York Choice-of-Law
Plaintiff argues that there is an outcome-determinative difference between New York law and Italian
law. As explained above, the Court disagrees. In the alternative, to the extent Plaintiff might be correct, the
Court will undertake a choice-of-law analysis. If a
court has established that the outcome of the case is
dependent upon a difference in the law of two jurisdictions, a federal district court in the Southern District
of New York sitting in diversity must apply New York’s
choice-of-law rules. Bakalar v. Vavra, 619 F.3d 136, 139
(2d Cir. 2010); Schoeps v. Museum of Modern Art & the
Solomon R. Guggenheim Museum, 594 F. Supp. 2d
461, 465 (S.D.N.Y. 2009). Plaintiff and Defendant agree
that New York applies an “interest analysis” to choiceof-law questions. (See Pl. Opp. at 20; Def. Rep. at 4.)
Under New York conflict principles, “[t]he New
York Court of Appeals has explicitly held that the New
York interest analysis is not rigid, but rather is determined by ‘an evaluation of the facts or contacts which
related to the purpose of the particular law in conflict.’ ” Abu Dhabi Inv. Auth. v. Citigroup, Inc., No. 12
CIV. 283 (GBD), 2013 WL 789642, at *6 (S.D.N.Y. Mar.
4, 2013), aff ’d, 557 F. App’x 66 (2d Cir. 2014) (quoting
Padula v. Lilarn Props. Corp., 84 N.Y.2d 519, 521
(1994)). Interest analysis is a fact intensive “ ‘flexible
approach intended to give controlling effect to the law
of the jurisdiction, which, because of its relationship or
contact with the occurrence or the parties, has the
greatest concern with the specific issue raised in the
litigation.’ ” Fin. One Pub. Co. v. Lehman Bros. Special

App. 55
Fin., 414 F.3d 325, 337 (2d Cir. 2005) (quoting Cooney
v. Osgood Mach., Inc., 81 N.Y.2d 66, 72 (1993); see Bakalar, 619 F.3d at 144 (“New York choice of law rules
require the application of an ‘interest analysis,’ in
which ‘the law of the jurisdiction having the greatest
interest in the litigation [is] applied . . . ’ ”.) (quoting
Karaha Bodas Co. v. Perusahaan Pertambangan Minyak Dan Gas Bumi Negara, 313 F.3d 70, 85 (2d Cir.
2002)); see John v. Sotheby’s, Inc., 858 F. Supp. 1283,
1289 (S.D.N.Y. 1994), aff ’d, 52 F.3d 312 (2d Cir. 1995)
(citing J. Zeevi & Sons, Ltd. v. Grindlays Bank (Uganda)
Ltd., 37 N.Y.2d 220, 226-27 (1975)) (“The Court will apply the laws of the jurisdiction that has the greatest
interest in, and is most intimately concerned with, the
outcome of a given litigation.” (emphasis added)).
In applying an interest analysis to the instant
case, the Court of Appeals’ analysis in Bakalar is
instructive. Bakalar centered on a dispute over the
ownership of a drawing (“Drawing”) by Egon Schiele.
619 F.3d at 137. Originally owned by Franz Friedrich
Grunbaum (“Grunbaum”) in Vienna in 1938, heirs to
the Grunbaum estate alleged that he was deprived of
his possession and dominium over the Drawing after
being arrested by the Nazis and signing a power of
attorney to his wife, while imprisoned at Dachau. Id.
Grunbaum died in Dachau in 1941; his wife died in a
concentration camp in 1942. Id. at 138-39. The Drawing was purchased along with forty-five other Schieles
by Galerie Gutekunst, a Swiss art gallery, in February
and May of 1956. Id. at 139. Several months later, on
September 18, 1956, the Drawing was purchased by

App. 56
the Galerie St. Etienne and was shipped to it in New
York. Id. On November 12, 1963, the Galerie sold the
drawing to David Bakalar. Id. The way in which the
Drawing traveled from Vienna to Switzerland to Galerie St. Etienne, the New York art gallery from which
Bakalar purchased it, is unclear, as there are no records of what became of the art collection after Grunbaum’s arrest. Id. at 138.
As in the instant action, multiple jurisdictions had
a logical claim for providing the relevant law in Bakalar: Austria, the situs of the initial alleged theft;
Switzerland, where title was transferred in the 1950s;
and New York, where the drawing was sold to a gallery
and ultimately purchased by Bakalar in 1963. Id. at
146. Although the District Court and the Court of Appeals agreed that New York’s choice-of-law rules governed, they came to differing conclusions. The District
Court, relying on the traditional “situs rule,” held that
“[u]nder New York’s choice of law rules, questions relating to the validity of a transfer of personal property
are governed by the law of the state where the property
is located at the time of the alleged transfer,” which
was Switzerland. Bakalar v. Vavra, 550 F. Supp. 2d
548, 550 (S.D.N.Y. 2008) (quoting Greek Orthodox Patriarchate of Jerusalem v. Christie’s, Inc., 1999 WL
673347, at *4-5 (S.D.N.Y. Aug. 30, 1999)). Following a
2008 bench trial, judgement was entered for Bakalar.
See Bakalar v. Vavra, 2008 WL 4067335, at *9 (S.D.N.Y.
2008). Applying Swiss law, the District Court found
that the Swiss Galerie Gutekunst had purchased the
drawing in 1956 in “good faith” from Mathilde Lukacs,

App. 57
the sister-in-law of Grunbaum, and therefore Galerie
Gutekunst had acquired good title to the Drawing. Id.
As a subsequent purchaser from the Swiss Galerie, the
Court concluded that Bakalar had also acquired good
title to the Drawing. Id.
The Court of Appeals disagreed, finding that New
York’s choice-of-law rules demanded the application of
New York substantive law, not Swiss law. The Court
stated that choice-of-law disputes regarding the validity of a transfer of personal property are not governed
by the “situs rule,” which relies on the location of the
disputed property, or parties, at a given point in time.
Bakalar, 619 F.3d at 143. Rather, New York’s choice-oflaw analysis is driven by the “interests” of affected
jurisdictions, not the location of events. The Court of
Appeals explained New York’s choice-of-law approach
this way:
The problem with the traditional situs rule
. . . is that it no longer accurately reflects the
current choice of law rule in New York regarding personal property. This is demonstrated
by our decision in Karaha Bodas Co., LLC v.
Perusahaan Pertambangan Dan Gas Bumi
Negara, 313 F.3d 70, 85 n.15 (2d Cir. 2002).
The plaintiff there argued that “the law of the
situs of the disputed property generally controls.” Id. We declined to apply this rule because “the New York Court of Appeals
explicitly rejected the ‘traditional situs rule’
in favor of interest analysis in Istim.” Id. (citing Istim, Inc. v. Chemical Bank, 78 N.Y.2d
342, 346-47, (1991). . . . “In property disputes,

App. 58
if a conflict is identified, New York choice of
law rules require the application of an ‘interests analysis,’ in which ‘the law of the jurisdiction having the greatest interest in the
litigation [is] applied and . . . the facts or contacts which obtain significance in defining
State interests are those which relate to the
purpose of the particular law in conflict.’ ”
Karaha Bodas, 313 F.3d at 85.
Bakalar, 619 F.3d at 143-44.
The Court concluded that it was New York,
not Switzerland, that had the “greatest interest in the
litigation” over the Drawing. Id. The “locus of the
[alleged] theft was simply not relevant.” Id. (citing
Kunstsammlungen Zu Weimar v. Elicofon, 536 F. Supp.
829, 846 (E.D.N.Y. 1981)). Rather, New York had an
interest in “preserv[ing] the integrity of transactions and, by having its substantive law applied, prevent[ing] the state from becoming a marketplace for
stolen goods”. Bakalar, 619 F.3d at 144 (emphasis omitted). Indeed, “if the claim of [Grunbaum’s heirs] is credited, a stolen piece of artwork was delivered in New
York to a New York art gallery, which sold it in New
York to Bakalar.” Id. The Court reasoned that these
events “made New York a marketplace for stolen goods
and, more particularly, for stolen artwork.” Id. (internal quotation marks and citations omitted). Moreover,
the Court stated that “[t]he application of New York
law may cause New York purchasers of artwork to
take greater care in assuring themselves of the legitimate provenance of their purchase.” Id. Therefore,

App. 59
“[h]owever the Drawing came into the possession of the
Swiss art gallery, New York has a compelling interest
in the application of its law.” Id. In this way, New York
had the “greatest interest in,” and “is most intimately
concerned with, the outcome” of, this litigation. See
John v. Sotheby’s, Inc., 858 F. Supp. 1283, 1289 (S.D.N.Y.
1994), aff ’d, 52 F.3d 312 (2d Cir. 1995) (internal citations omitted).
By contrast, the Court found that Switzerland,
where a portion of the Schiele collection had surfaced
in the mid-1950s before being sold to a New York gallery, had only a “tenuous interest” in the litigation. Bakalar, 619 F.3d at 144. “The resolution of an ownership
dispute in the Drawing between parties who otherwise
have no connection to Switzerland does not implicate
any Swiss interest simply because the Drawing passed
through there.” Id. Although “the Drawing was purchased in Switzerland by a Swiss art gallery,” it was
“resold [ ] within five months to a New York art gallery”
where it remained for years. Id.
The facts of Bakalar are analogous to those in the
present case. Here, as in Bakalar, New York has “the
greatest interest in,” and “is most intimately concerned
with, the outcome” of, this litigation. Id.; Sotheby’s, 858
F. Supp. at 1289 (emphasis added). Although the immediate history of the Painting after Perls and Rosenberg purchased it in June 1938 is unclear, the Painting
has remained in New York since at least 1939, within
one year of the disputed 1938 transaction, when art
dealer Paul Rosenberg loaned it to MoMA located in
New York. (See Am. Compl. ¶ 52.) By October 1940, a

App. 60
well-known New York Gallery consigned the Painting
for sale and sold it on November 14, 1941, to Foy, a New
York collector. (See Am. Compl. ¶ 53.) In 1952, Foy donated the Painting to the Museum, “a New York notfor-profit corporation operating as a public museum
located in New York County, New York.” (See Am.
Compl. ¶ 5.) The Defendant Museum, a major New
York cultural institution, possessed and exhibited the
Painting for the past 66 years, all in New York. (See
Am. Compl. ¶ 54.)
Just as the Court of Appeals in Bakalar held that
Swiss interests were not implicated by the mere fact of
the painting’s passing through Switzerland before relocating to New York in less than one year, this Court
similarly finds the interests of Italy “tenuous” when
compared to those of New York. Although the Leffmanns were in Italy during the 1938 sale, they were
not Italian citizens and resided in Italy for only four
months after the sale, which took place in France,
through a Parisian dealer to French counter-parties,
(See Am. Compl. ¶ 2, 13-14, 36-37.) Additionally, the
Painting was never located in Italy, rather the Leffmanns moved it “[s]ome time prior to their departure
from Germany” to Switzerland, where it “was saved
from Nazi confiscation or worse.” (See Am. Compl.
¶ 14.)
Here, as in Bakalar, “the application of New York
law may cause New York purchasers of artwork to take
greater care in assuring themselves of the legitimate
provenance of their purchase.” Bakalar, 619 F.3d at
145. Therefore, “[t]he tenuous interest of [Italy] created

App. 61
by these circumstances, however, must yield to the significantly greater interest of New York, as articulated
in Lubell and Elicofon, in preventing the state from becoming a marketplace for stolen goods.” Id. (citing Elicofon, 536 F. Supp. at 846 (holding that “[u]nder New
York law, in an action to recover converted property
from a bona fide purchaser an owner must prove that
the purchaser refused, upon demand, to return the
property” and therefore, the statute of limitations did
not begin to run until demand and refusal)).
Plaintiff ’s reliance on Schoeps v. Museum of Modern Art, 594 F. Supp. 2d 461 (S.D.N.Y. 2009), to support
the position that Italian law should govern the 1938
transaction is misplaced. (See Pl. Opp. at 5, 15-16, 1921.) Schoeps involved claims by Julius Schoeps and
other heirs of Paul von Mendelssohn-Bartholdy (“Paul
M.”) and/or of his second wife, Elsa, that two Picasso
paintings (collectively “the Picassos”) – “Boy Leading
a Horse” (1905-1906) (“Boy”) and “Le Moulin de la
Galette” (1900) – once owned by Paul M. and held by,
respectively, MoMA and the Solomon R. Foundation,
were transferred from Paul M. and/or Elsa as a result
of Nazi duress and rightfully belonged to one or more
of the Claimants. Schoeps, 594 F. Supp. 2d at 463. In
1933, Paul M. shipped five Picasso paintings to Switzerland where he sold them approximately one year
later, allegedly under duress, for an unknown price.
(See Compl. for Declaratory Relief at 11-12, Schoeps,
594 F. Supp. 2d 461 (S.D.N.Y. 2009) (No. 07-11074)
[dkt. no. 1].) The purchaser of the Picassos, Justin
Thannhauser, a Swiss art dealer, sold Boy to American

App. 62
collector William Paley, who ultimately donated it to
MoMA in 1964. (Id. at 1-2.) Thannhauser held onto Le
Moulin de la Galette before donating it to the Guggenheim Museum in New York in 1963, following his relocation to the United States. Id. The District Court held
that under New York’s choice-of-law rules, German law
governed whether the transfer of the Paintings to
Thannhauser was the product of duress. Schoeps, 594
F. Supp. 2d at 465.
Plaintiff relies on the Court’s holding in Schoeps
stating, “[t]he Court determined that the law of Germany – where the transferors were located – governed
this question even though there were other jurisdictions involved, including Switzerland, where, as here,
the paintings may have been located.” (Pl. Opp. at 21.)
In reaching this conclusion, the District Court stated
that “New York applies interest analysis to choiceof-law questions” but then described interest analysis
using the “five factors” which govern “contract dispute[s].” Schoeps, 594 F. Supp. 2d at 465 (emphasis
added). However, these five factors, “including the
place of contracting, the place of negotiation, the place
of performance, the location of the subject matter of the
contract, and the domicile or place of business of the
contracting parties” are the five factors of the “center
of gravity” test, not an “interest analysis.” Id.; see Md.
Cas. Co. v. Cont’l Cas. Co., 332 F.3d 145, 151-52 (2d Cir.
2003) (listing the five factors of the “center of gravity”
test). Therefore, by conflating the “center of gravity”
test with an “interest analysis,” the District Court effectively created what both Plaintiff and Defendant

App. 63
have called “a hybrid test.” (See Pl. Opp. at 21; Def. Rep.
at 5.)
In the instant case, the application of a “hybrid
test” is inappropriate, as the Court of Appeals has
stated that an “interest analysis,” not an “interest
analysis” combined with the factors of a “center of
gravity test,” is what governs in choice-of-law disputes
regarding the transfer of personal property. See GlobalNet Financial.com, Inc. v. Frank Crystal & Co., 449
F.3d 377, 384 (2d Cir. 2006). “Under New York law
there are two different ‘choice-of-law analyses, one for
contract claims, another for tort claims.’ ” Id.; See
Granite Ridge Energy, LLC v. Allianz Glob. Risk U.S.
Ins. Co., 979 F. Supp. 2d 385, 392 (S.D.N.Y. 2013) (citations omitted); see, e.g., Fin. One Pub. Co., 414 F.3d at
336. The Court of Appeals has established a clear distinction between the “center of gravity” approach and
the “interest analysis” approach. GlobalNet Financial.com, 449 F.3d at 384 (“[T]he relevant analytical approach to choice of law in tort actions in New York is
the ‘[i]nterest analysis.’ ”) (citation omitted); Benefield
v. Pfizer Inc., 103 F. Supp. 3d 449, 457 (S.D.N.Y. 2015)
(“For contract claims, New York courts apply the ‘center of gravity’ or ‘grouping of contacts’ choice of law theory.”) (citation omitted); Winter v. Am. Inst. of Med.
Scis. & Educ., 242 F. Supp. 3d 206, 218 (S.D.N.Y. 2017)
(“New York maintains two choice-of-law tests – one for
contract claims and one for tort claims.”).
For contract claims in New York, the “center of
gravity” test, traditionally known as the “situs” rule,
makes use of five factors to determine which of two or

App. 64
more jurisdictions has the “most significant relationship” or “contacts” to a given contract dispute. Md. Cas.
Co., 332 F.3d at 151-52. Under this test, a court considers five factors: (1) the place of contracting, (2) the
place of negotiation of the contract, (3) the place of performance, (4) the location of the subject matter of the
contract, and (5) the domicile or place of business of the
contracting parties. Id. The five factors comprising the
“center of gravity” test are thus the same five factors
the District Court used in Schoeps to conduct what
it called an “interest analysis.” The Court concluded
without elaborating that “[a]ll five of these factors
plainly support the application of German law to the
issue of whether the transfer of these German-held
Paintings in 1935 was a product of Nazi duress or the
like.” Schoeps, 594 F. Supp. 2d at 465.
Plaintiff ’s reliance on the “hybrid test” in Schoeps
is misguided as the Court of Appeals explicitly stated
that “the conflation of the two tests is improper.” Lazard Freres & Co. v. Protective Life Ins. Co., 108 F.3d
1531, 1539 n.5 (2d Cir. 1997). Based on this “hybrid
test,” Plaintiff maintains that “[t]he circumstances as
to the [1938] sale are Italian-centric,” and therefore,
Italian law should govern the issue of duress in this
case. (Pl. Opp. at 21.) However, even examining the
facts of the 1938 transaction under the “center of gravity” factors does not conclusively point to the application of Italian law here. Parties in Italy and France
negotiated and performed the contract via letters,
while the Painting remained in Switzerland, not Italy.
(See Am. Compl. ¶¶ 13, 14, 36.) Once sold, the Painting

App. 65
traveled to France, purchased through a Parisian
dealer on behalf of French counter-parties. Id. Although the Leffmanns resided in Italy at the time of the
1938 sale, New York courts have stated that the locus
of the alleged injury is not dispositive in an “interest
analysis.” See Abu Dhabi Inv. Auth. v. Citigroup, Inc.,
No. 12-283, 2013 U.S. Dist. LEXIS 30214, at *23
(S.D.N.Y. Mar. 4, 2013) (stating that “[w]hile the place
where the injury was felt is an important factor, it is
not conclusive”); see Cummins v. Suntrust Capital
Mkts., Inc., 649 F. Supp. 2d 224, 237 (S.D.N.Y. 2009).
Thus, even under Plaintiff’s “hybrid test” from Schoeps,
French law, not Italian law, might well be applicable.
In any event, the Court rejects this analysis as incorrect under New York choice-of-law rules.
Here, as in Bakalar, the interests of a European
jurisdiction where one party to the transaction was
temporarily passing through are “tenuous” when compared to those of New York. Bakalar, 619 F.3d at 14445. New York’s interests surpass those of Italy, where,
as here, the artwork was transferred to New York
shortly after the 1938 transaction, was ultimately sold
to a New York resident, and donated to a New York institution where it has remained, mostly on display to
the public, since 1952. Moreover and consistent with
Bakalar, New York has an interest in “preserv[ing] the
integrity of transactions and prevent[ing] the state
from becoming a marketplace for stolen goods” by having its substantive law applied. Id. For these reasons,
under an “interest analysis,” New York has the greatest interest in, and is most intimately concerned with,

App. 66
the outcome of this litigation. Accordingly, under New
York choice-of-law analysis, New York substantive law
is applicable to the 1938 transaction.
iv. The Amended Complaint Fails to State a
Claim
As set out in Part III.B.i and Part III.B.ii above,
the Court finds no outcome-determinative difference
between Italian and New York law and that under either law, Plaintiff fails to state a claim for relief. Accordingly, dismissal is required under Fed. R. Civ. P.
12(b)(6).
In the alternative, as set out in Part III.B.iii above,
to the extent that a difference is perceived between
Italian and New York law, New York’s choice-of-law
analysis prescribes that New York law is applicable to
the 1938 transaction. As noted in Part III.B.ii above,
Plaintiff fails to state a claim for relief under New York
law.
IV. CONCLUSION
For the reasons discussed above, Defendant’s Motion to Dismiss the Amended Complaint [dkt. no. 11] is
granted.
The Clerk of Court shall mark this action closed
and all pending motions denied as moot.

App. 67
SO ORDERED.
Dated: New York, New York
February 7, 2018
/s/ Loretta A. Preska
LORETTA A. PRESKA
Senior United States
District Judge

App. 68
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------------- X
LAUREL ZUCKERMAN, AS
ANCILLARY ADMINISTRATRIX
OF THE ESTATE OF
ALICE LEFFMAN [sic],
16 CIVIL 7665
(LAP)
Plaintiff,
JUDGMENT

-v-

(Filed Feb. 7, 2018)

THE METROPOLITAN
MUSEUM OF ART.
Defendant.
------------------------------------------- X

It is hereby ORDERED, ADJUDGED AND DECREED: That for the reasons stated in the Court’s
Opinion dated February 7, 2018, Defendant’s Motion to
Dismiss the Amended Complaint is granted; accordingly, the case is closed.
Dated: New York, New York
February 7, 2018
RUBY J. KRAJICK
Clerk of Court
BY: /s/

K Mango
Deputy Clerk

App. 69
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
--------------------------------------------------------------------------------------------------------------------------------------------------

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 29th day of August, two
thousand nineteen.
Laurel Zuckerman, as Ancillary
Administratrix of the estate
of Alice Leffmann,
Plaintiff - Appellant,
v.

ORDER
Docket No: 18-634

The Metropolitan
Museum of Art,
Defendant - Appellee.
Appellant, Laurel Zuckerman, filed a petition for
panel rehearing, or, in the alternative, for rehearing en
banc. The panel that determined the appeal has considered the request for panel rehearing, and the active
members of the Court have considered the request for
rehearing en banc.

App. 70
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 71
PUBLIC LAW 114–308—DEC. 16, 2016
HOLOCAUST EXPROPRIATED ART RECOVERY
ACT OF 2016
Public Law 114–308
114th Congress
An Act
To provide the victims of Holocaust-era persecution
and their heirs a fair opportunity to recover works
of art confiscated or misappropriated by the Nazis.
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “Holocaust Expropriated Art Recovery Act of 2016”.
SEC. 2. FINDINGS.
Congress finds the following:
(1) It is estimated that the Nazis confiscated
or otherwise misappropriated hundreds of thousands of works of art and other property throughout Europe as part of their genocidal campaign
against the Jewish people and other persecuted
groups. This has been described as the “greatest
displacement of art in human history”.
(2) Following World War II, the United
States and its allies attempted to return the stolen

App. 72
artworks to their countries of origin. Despite these
efforts, many works of art were never reunited
with their owners. Some of the art has since been
discovered in the United States.
(3) In 1998, the United States convened a
conference with 43 other nations in Washington,
DC, known as the Washington Conference, which
produced Principles on Nazi-Confiscated Art. One
of these principles is that “steps should be taken
expeditiously to achieve a just and fair solution” to
claims involving such art that has not been restituted if the owners or their heirs can be identified.
(4) The same year, Congress enacted the
Holocaust Victims Redress Act (Public Law 105–
158, 112 Stat. 15), which expressed the sense of
Congress that “all governments should undertake
good faith efforts to facilitate the return of private
and public property, such as works of art, to the
rightful owners in cases where assets were confiscated from the claimant during the period of Nazi
rule and there is reasonable proof that the claimant is the rightful owner.”.
(5) In 2009, the United States participated
in a Holocaust Era Assets Conference in Prague,
Czech Republic, with 45 other nations. At the conclusion of this conference, the participating nations issued the Terezin Declaration, which
reaffirmed the 1998 Washington Conference Principles on Nazi-Confiscated Art and urged all participants “to ensure that their legal systems or
alternative processes, while taking into account
the different legal traditions, facilitate just and
fair solutions with regard to Nazi-confiscated and

App. 73
looted art, and to make certain that claims to recover such art are resolved expeditiously and
based on the facts and merits of the claims and all
the relevant documents submitted by all parties.”.
The Declaration also urged participants to “consider all relevant issues when applying various legal provisions that may impede the restitution of
art and cultural property, in order to achieve just
and fair solutions, as well as alternative dispute
resolution, where appropriate under law.”.
(6) Victims of Nazi persecution and their
heirs have taken legal action in the United States
to recover Nazi-confiscated art. These lawsuits
face significant procedural obstacles partly due to
State statutes of limitations, which typically bar
claims within some limited number of years from
either the date of the loss or the date that the
claim should have been discovered. In some cases,
this means that the claims expired before World
War II even ended. (See, e.g., Detroit Institute of
Arts v. Ullin, No. 06–10333, 2007 WL 1016996
(E.D. Mich. Mar. 31, 2007).) The unique and horrific circumstances of World War II and the Holocaust make statutes of limitations especially
burdensome to the victims and their heirs. Those
seeking recovery of Nazi-confiscated art must
painstakingly piece together their cases from a
fragmentary historical record ravaged by persecution, war, and genocide. This costly process often
cannot be done within the time constraints imposed by existing law.
(7) Federal legislation is needed because the
only court that has considered the question held
that the Constitution prohibits States from

App. 74
making exceptions to their statutes of limitations
to accommodate claims involving the recovery of
Nazi-confiscated art. In Von Saher v. Norton Simon Museum of Art, 592 F.3d 954 (9th Cir. 2009),
the United States Court of Appeals for the Ninth
Circuit invalidated a California law that extended
the State statute of limitations for claims seeking
recovery of Holocaust-era artwork. The Court held
that the law was an unconstitutional infringement
of the Federal Government’s exclusive authority
over foreign affairs, which includes the resolution
of war-related disputes. In light of this precedent,
the enactment of a Federal law is necessary to ensure that claims to Nazi-confiscated art are adjudicated in accordance with United States policy as
expressed in the Washington Conference Principles on Nazi-Confiscated Art, the Holocaust Victims Redress Act, and the Terezin Declaration.
(8) While litigation may be used to resolve
claims to recover Nazi-confiscated art, it is the
sense of Congress that the private resolution of
claims by parties involved, on the merits and
through the use of alternative dispute resolution
such as mediation panels established for this purpose with the aid of experts in provenance research and history, will yield just and fair
resolutions in a more efficient and predictable
manner.
SEC. 3. PURPOSES.
The purposes of this Act are the following:
(1) To ensure that laws governing claims to
Nazi-confiscated art and other property further

App. 75
United States policy as set forth in the Washington Conference Principles on Nazi-Confiscated
Art, the Holocaust Victims Redress Act, and the
Terezin Declaration.
(2) To ensure that claims to artwork and
other property stolen or misappropriated by the
Nazis are not unfairly barred by statutes of limitations but are resolved in a just and fair manner.
SEC. 4. DEFINITIONS.
In this Act:
(1) ACTUAL DISCOVERY.—The term “actual
discovery” means knowledge.
(2) ARTWORK OR OTHER PROPERTY.—The
term “artwork or other property” means—
(A)

pictures, paintings, and drawings;

(B)

statuary art and sculpture;

(C) engravings, prints, lithographs, and
works of graphic art;
(D) applied art and original artistic assemblages and montages;
(E) books, archives, musical objects and
manuscripts (including musical manuscripts
and sheets), and sound, photographic, and cinematographic archives and mediums; and
(F) sacred and ceremonial objects and
Judaica.

App. 76
(3) COVERED PERIOD.—The term “covered period” means the period beginning on January 1,
1933, and ending on December 31, 1945.
(4) KNOWLEDGE.—The term “knowledge”
means having actual knowledge of a fact or circumstance or sufficient information with regard to
a relevant fact or circumstance to amount to actual knowledge thereof.
(5) NAZI PERSECUTION.—The term “Nazi persecution” means any persecution of a specific
group of individuals based on Nazi ideology by the
Government of Germany, its allies or agents, members of the Nazi Party, or their agents or associates, during the covered period.
SEC. 5. STATUTE OF LIMITATIONS.
(a) IN GENERAL.—Notwithstanding any other
provision of Federal or State law or any defense at law
relating to the passage of time, and except as otherwise
provided in this section, a civil claim or cause of action
against a defendant to recover any artwork or other
property that was lost during the covered period because of Nazi persecution may be commenced not later
than 6 years after the actual discovery by the claimant
or the agent of the claimant of—
(1) the identity and location of the artwork
or other property; and
(2) a possessory interest of the claimant in
the artwork or other property.

App. 77
(b) POSSIBLE MISIDENTIFICATION.—For purposes
of subsection (a)(1), in a case in which the artwork or
other property is one of a group of substantially similar
multiple artworks or other property, actual discovery
of the identity and location of the artwork or other
property shall be deemed to occur on the date on which
there are facts sufficient to form a substantial basis to
believe that the artwork or other property is the artwork or other property that was lost.
(c) PREEXISTING CLAIMS.—Except as provided in
subsection (e), a civil claim or cause of action described
in subsection (a) shall be deemed to have been actually
discovered on the date of enactment of this Act if—
(1)

before the date of enactment of this Act—

(A) a claimant had knowledge of the elements set forth in subsection (a); and
(B) the civil claim or cause of action was
barred by a Federal or State statute of limitations; or
(2)(A) before the date of enactment of this
Act, a claimant had knowledge of the elements set
forth in subsection (a); and
(B) on the date of enactment of this Act, the
civil claim or cause of action was not barred by a
Federal or State statute of limitations.
(d) APPLICABILITY.—Subsection (a) shall apply to
any civil claim or cause of action that is—
(1) pending in any court on the date of enactment of this Act, including any civil claim or

App. 78
cause of action that is pending on appeal or for
which the time to file an appeal has not expired;
or
(2) filed during the period beginning on the
date of enactment of this Act and ending on December 31, 2026.
(e) EXCEPTION.—Subsection (a) shall not apply to
any civil claim or cause of action barred on the day before the date of enactment of this Act by a Federal or
State statute of limitations if—
(1) the claimant or a predecessor-in-interest
of the claimant had knowledge of the elements set
forth in subsection (a) on or after January 1, 1999;
and
(2) not less than 6 years have passed from
the date such claimant or predecessor-in-interest
acquired such knowledge and during which time
the civil claim or cause of action was not barred by
a Federal or State statute of limitations.
(f ) RULE OF CONSTRUCTION.—Nothing in this Act
shall be construed to create a civil claim or cause of
action under Federal or State law.
(g) SUNSET.—This Act shall cease to have effect
on January 1, 2027, except that this Act shall continue
to apply to any civil claim or cause of action described
in subsection (a) that is pending on January 1, 2027.
Any civil claim or cause of action commenced on or after that date to recover artwork or other property described in this Act shall be subject to any applicable

App. 79
Federal or State statute of limitations or any other
Federal or State defense at law relating to the passage
of time.
Approved December 16, 2016.

__________________________________________________
LEGISLATIVE HISTORY—H.R. 6130 (S. 2763):
SENATE REPORTS: No. 114–394 (Comm. on the
Judiciary) accompanying S. 2763.
CONGRESSIONAL RECORD, Vol. 162 (2016):
Dec. 7, considered and passed House.
Dec. 9, considered and passed Senate.

App. 80
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
-------------------------------------------- x
:
LAUREL ZUCKERMAN, AS
ANCILLARY ADMINISTRATRIX :
:
Index No.
OF THE ESTATE OF
:
16-civ-07665
ALICE LEFFMANN,
:
AMENDED
Plaintiff,
:
COMPLAINT
vs.
:
JURY TRIAL
:
THE METROPOLITAN
DEMANDED
:
MUSEUM OF ART,
:
Defendant.
:
-------------------------------------------- x
Plaintiff, Laurel Zuckerman, as Ancillary Administratrix of the estate of Alice Leffmann, through her
undersigned counsel, Herrick, Feinstein LLP, for her
Complaint against Defendant, alleges as follows:
NATURE OF THE ACTION
1. This is an action by Laurel Zuckerman, the
Ancillary Administratrix of the estate of Alice Leffmann (the sole heir of Paul Friedrich Leffmann) (the
“Leffmann estate”), to recover from New York’s Metropolitan Museum of Art (the “Museum”) a monumental
work by Pablo Picasso entitled “The Actor,” 1904-1905,
oil on canvas, 77 1/4 x 45 3/8 in., signed lower right Picasso (the “Painting”), which was owned by Paul

App. 81
Friedrich Leffmann (“Leffmann” or “Paul”), a German
Jew, from approximately 1912 until 1938.
2. In 1937, Paul, who until the advent of the Nazi
regime had been a prosperous industrialist and investor, and his wife, Alice, were forced to flee Germany in
fear for their lives, after losing their business, livelihood, home and most of their possessions due to Nazi
persecution. The feasible escape route at the time was
Italy, but any hope of finding a safe haven from the Nazis in Italy was soon dashed. Shortly after their arrival,
Mussolini and his Fascist regime increasingly adopted
and implemented the Nazi pattern of rampant antiSemitic policies and outright physical persecution of
Jews, especially of immigrants from Austria and Germany. By 1938, it was clear that remaining in Italy was
no longer an option, and, desperate to flee, the Leffmanns were forced to sell their remaining possession
of substantial value, The Actor, at a price well below its
actual value. They left Italy a few months after the
sale, in October 1938, only days after the racist laws
expelling foreign Jews from Italy were enacted.
3. The Leffmanns would not have disposed of
this seminal work at that time, but for the Nazi and
Fascist persecution to which they had been, and without doubt would continue to be, subjected.
THE PARTIES
4. Laurel Zuckerman, the great-grandniece of
Paul and Alice Leffmann, received Ancillary Letters of
Administration CTA for the estate of Alice Leffmann

App. 82
from the Surrogate’s Court of the State of New York,
New York County, on October 18, 2010. Pursuant to 28
U.S.C. § 1332(c)(2), since Alice Leffmann was a Swiss
domiciliary, the Ancillary Administratrix is deemed to
be a citizen of Switzerland as well.
5. Defendant, the Metropolitan Museum of Art,
is a New York not-for-profit corporation operating as a
public museum located in New York County, New York.
6. This Court has subject matter jurisdiction
over this action pursuant to 28 U.S.C. § 1332, because
there is complete diversity of citizenship between
Plaintiff and Defendant, and the matter in controversy
exceeds $75,000, exclusive of interest and costs.
7. Venue is proper in this judicial district pursuant to 28 U.S.C. §§ 1391(a), (b) and (c), because Defendant is a New York not-for-profit corporation located in
New York County and the Painting that is the subject
matter of this dispute is located in this judicial district.
8. The Court has jurisdiction to grant the relief
requested pursuant to 28 U.S.C. §§ 2201(a) and 2202.
STATEMENT OF FACTS
9. In 1912, Leffmann purchased the Painting,
which, until he was forced by the circumstances in Fascist Italy to sell it under duress in 1938, was one of his
most valuable acquisitions. From 1912 until at least
1929, Leffmann exhibited the Painting at a variety of
exhibitions in Germany, at which he was identified as
the owner of the Painting. The Painting was also

App. 83
featured in newspaper articles, magazines and monographs during this time.
10. During this time and up to the start of the
Nazi period, Paul and Alice, German Jews, led a wonderful life together in Cologne, Germany. They had
sizeable assets, including Atlantic Gummiwerk, a
rubber manufacturing company that was one of the
leading concerns of its kind in Europe, which Paul coowned with Herbert Steinberg; real estate investment
properties in Cologne (Hohenzollernring 74 and Friesenwall 77); and their home located at Haydnstrasse
13, Köln-Lindenthal. The Leffmanns’ home included a
collection of Chinese and Japanese artifacts and other
artworks, including the masterwork by Pablo Picasso
that is the subject of this action.
11. Beginning in 1933, the world the Leffmanns
knew in Germany began to shatter. Adolf Hitler came
to power and the racist laws directed against Jews
quickly began to be enacted and enforced, leading to
the adoption of the Nuremberg Laws (“The Laws for
the Protection of German Blood and German Honor”)
on September 15, 1935. The Nuremberg laws deprived
all German Jews, including Paul and Alice, of the
rights and privileges of German citizenship, ended any
normal life or existence for Jews in Germany and relegated all Jews to a marginalized existence, a first step
toward their mass extermination.
12. The Nuremberg Laws formalized a process of
exclusion of Jews from Germany’s economic and social
life. It ushered in a process of eventual total

App. 84
dispossession through what became known as “Aryanization” or “Arisierung,” first by takeovers by “Aryans”
of Jewish-owned businesses and then by forcing Jews
to surrender virtually all of their assets. In this process, all Jewish workers and managers were dismissed,
and businesses and corporations belonging to Jewish
owners were forcibly transferred from those owners to
non-Jewish Germans, who “bought” them at prices officially fixed and well below market value. As a result,
the number of Jewish-owned businesses in Germany
was reduced by approximately two-thirds from April
1933 to April 1938. By that time, the Nazi regime
moved to the final phase of dispossession, first requiring Jews to register all their domestic and foreign assets and then moving to possess themselves of all such
assets.
13. On September 16, 1935, the Leffmanns were
forced to sell their home to an Aryan German corporation, Rheinsiche Braunkohlensyndikats GmbH Köln;
on December 19, 1935, Paul and his Jewish partner,
Herbert Steinberg, were forced to transfer ownership
of Atlantic Gummiwerk to Aloys Weyers (their nonJewish minority business partner); and on July 27,
1936, Paul was forced to sell all of his real estate investments to Feuerversicherungsgessellschaft Rheinland AG, yet another Aryan German corporation. In
return, Paul had no choice but to accept only nominal
compensation. These were, indeed, not real sales at all,
but essentially thefts by Nazi designees of substantially everything the Leffmanns ever owned, except for

App. 85
The Actor, which was, at the time, ever so fortuitously
for them, located in neutral Switzerland.
14. Some time prior to their departure from
Germany, Paul and Alice had arranged for The Actor to
be held in Switzerland by a non-Jewish German acquaintance named Professor Heribert Reiners. Reiners
kept The Actor in his family home in Fribourg, where
it remained for its entire stay in Switzerland. For this
reason only, The Actor was saved from Nazi confiscation or worse.
15. The Leffmanns’ world was falling apart piece
by piece. Having lost their home, their business and
their investment properties, and witnessing the rise to
power of the Nazi regime, its adoption of radical racist
policies, and the accompanying increase in physical violence against Jews, it became clear that the persecution of Jews in Germany was growing at an alarming
rate. Paul and Alice, like so many other German Jews,
found themselves faced with the threat of growing violence, the risk of imprisonment and possibly deportation and death. Thus, to avoid the loss of the property
they had left – not to mention their lives – they began
planning their flight from Germany, liquidating their
remaining assets in Germany to enable them to survive and escape. Their lives were changed forever as
they abruptly lost their wealth and identity and became fugitives.
16. The Leffmanns finally were able to flee Germany in the spring of 1937. By 1937, when the Leffmanns’ migration began, the Nazi regime had already

App. 86
put in place its ever tightening network of taxes,
charges, and foreign exchange regulations designed to
arrogate most, and subsequently all, Jewish-owned assets to itself. Emigrants were only able to leave with a
tiny fraction of their assets. The Leffmanns, upon their
escape from the Reich, consequently left having been
dispossessed of most of what they once owned.
17. The groundwork for, as Reichsmarxhall Hermann Göring put it, “getting rid of the Jews, but keeping their assets,” had been laid as early as 1934 with a
change in the tax law that declared that the law be interpreted according to the National-Socialist ideology.
This meant that Jews and other persecutees lost all legal recourse against discriminatory tax treatment and
legislation. Subsequently, tax instruments became increasingly important in the set of quasi-legal instruments used to strip Jews of their assets. Among these,
the flight tax (“Reichsfluchtsteuer”) was prominent.
But even before this, the wave of emigration following
Hitler’s accession to power had led to a tightening of
the flight tax regulations not only by lowering its
threshold, but even more important, by authorizing
the tax offices to require security deposits as they saw
fit. This became one of the more important instruments in the dispossession of emigrants and would-be
emigrants, and was used, inter alia, to put Jews, especially wealthy ones, under surveillance by the foreign
exchange authorities (the “Devisenstelle”).
18. By the end of 1936 (i.e., shortly before the
Leffmanns’ emigration), the increasingly precarious
foreign exchange position of the Reich caused a further

App. 87
tightening of foreign exchange regulations, which imposed the death penalty on attempts to undercut these
regulations and codified the Devisenstelle’s authority
to block assets of persons found to be evading or intending to evade the regulations. Thus, even suspicion
of the intention to emigrate led the authorities with
ever increasing frequency to require a suspect to put
his assets in a blocked emigrant’s account, which he
could dispose of only with the approval of the Devisenstelle. Any legal transfers abroad could be made only
from such blocked accounts via the Deutsche
Golddiskontbank, the government bank through which
foreign exchange transactions were made (the “DeGo”),
at increasingly large discounts. In 1937 the discount
charged by the DeGo exceeded 80%. This, then, was the
environment in which the Leffmanns prepared for
their flight from the Reich.
19. Another measure by which the Reich seized
assets from fleeing Jews was the flight tax. Flight tax
assessments were based on wealth tax declarations,
which referred to wealth in the previous year and
which were calculated at 25% of the value of the reported assets. Payment of the flight tax did not give the
emigrant any right whatsoever to transfer abroad any
of the remaining assets after payment of the tax. In
fact, the flight tax amount typically would have been
considerably higher than 25% of the assets actually
owned at the time of emigration, as those who were
persecuted by the Nazis – as were the Leffmanns – suffered dramatic financial losses in the period leading up
to their emigration, so that their assets at the time of

App. 88
emigration would have been considerably smaller than
those on which their flight tax was assessed. The payment of the flight tax was necessary to obtain the noobjection certification of the tax authorities, which in
turn was necessary to obtain an exit permit. In the case
of the Leffmanns, the flight tax was thus calculated at
25% of the assets they reported on their 1937 tax form,
which would have included their total assets held in
1936. The Leffmanns paid this flight tax in the amount
of 120,000 to 125,000 RM in cash.
20. While they would have preferred neutral
Switzerland over Italy, where the Fascists were already in power and closer relations with Nazi Germany had begun to develop, at the time, a long-term
stay in Switzerland would have been virtually impossible. Italy, as opposed to Switzerland, was one of the
few European countries still allowing the immigration
of German Jews, so that is where they went, hoping
that Italy, with its significant Jewish population, would
be a safe haven from the Nazi onslaught.
21. In light of the ever-tightening regulations
governing the transfer of assets, emigrants sought alternative means of moving their funds abroad. One
major avenue involved creating a triangular agreement whereby individuals who owned property outside
the Reich and were in need of RM would agree to exchange the currency for property, which they would
then immediately liquidate upon arrival in the new
country. This is exactly the type of transaction the Leffmanns took part in when, in December 1936, they purchased a house and factory in Italy for an inflated price

App. 89
of RM 180,000 from the heirs of Eugenio Usenbenz
from Stuttgart and pre-agreed to sell the property back
to a designated Italian purchaser for lire, at a considerable loss, upon their arrival in Italy a few months
later.
22. In April 1937, the Leffmanns crossed the border into Italy, going first to Milan and then to Florence,
where many other German Jewish refugees ended up,
and where their newly acquired house and factory
were located. Their hope, shared by other Jews emigrating from Austria and Germany to Italy, was that
life there could go on in some form of normalcy, which
it could not in Cologne.
23. Shortly after their arrival in Italy, as preagreed, the Leffmanns sold their newly-acquired properties to an Italian businessman named Gerolamo
Valli, who was a business partner of the family from
Stuttgart from whom they had originally purchased
the house and factory. They sold the properties at a
considerable loss – for 456,500 Lira (or about 61,622
RM) – and rented a home in Florence at Via Terme 29
and later at Via di San Vito 10.
24. But the Leffmanns’ time in Italy was shortlived. It soon became clear that the nightmare from
which they had fled was about to engulf them there as
well. But moving on meant yet again losing a significant part of their remaining financial assets. The Leffmanns had already lost two-thirds of their initial RM
investment in transfer costs, and they now stood to lose
much of their remaining cash proceeds as the tight

App. 90
Italian foreign exchange restrictions forced them to
seek conversion in “unofficial” ways. Paul was in his
late sixties when they arrived in Italy; Alice was six
years his junior. They were living as refugees, unable
to work in Italy, their prior lives destroyed by Nazi persecution, and on the run.
The Growing Influence of
Nazi Germany on Mussolini and Italy
25. In April 1936, Italy and Germany had secretly adopted the Italo-German Police Agreement,
which provided for the exchange of information, documents, evidence and identification materials by the police with regard to all emigrants characterized as
“subversives,” which by definition included German
Jews residing in Italy. Pursuant to this agreement, the
Gestapo could compel the Italian police to interrogate,
arrest and expel any German Jewish refugee.
26. By the fall of 1936 and into 1937, things had
grown even bleaker for Jews. On November 1, 1936,
Mussolini publicly announced the ratification of the
Rome-Berlin Axis. By March 1937, Italian bookshops
had begun to exhibit and openly sell the notorious
book, The Protocols of the Elders of Zion, along with
other anti-Semitic writings. During the summer and
fall of 1937, the head of the Italian Police, Arturo Bocchini, and Mussolini accepted a proposal from the notorious SS General Reinhard Heydrich, the chief of the
Security Service of the Reichsfiihrer (the SS) and the
German Secret State Police (the Gestapo), to assign a

App. 91
member of the German police to police headquarters in
the ten largest Italian cities, including Florence, where
the Leffmanns resided. This facilitated the Nazi efforts
to check on “subversives,” that is, Jewish individuals.
27. By the fall of 1937, anti-Semitism in Italy, including in the highest levels of the Ministry of the Interior, dashed any illusions about a longer stay in Italy
for the Leffmanns. That fall, Germany and Italy began
to prepare for Hitler’s visit to Italy. In October, the Ministry of the Interior created lists of all German refugees residing in Italy’s various provinces. The lists
were intended to draw clear distinctions between
“those who supported the Nazi regime” and “anti-Nazi
refugees” or Jews. This was the first time that the Italian Government had explicitly associated all German
Jews with anti-Nazi Germans. This marked a turning
point in the 1936 Italo-German Police Agreement, with
the Gestapo requesting these lists so that it could monitor “subversives” in anticipation of Hitler’s visit. From
the beginning of January 1938 until Hitler’s visit in
May, the Gestapo received a total of 599 lists from the
police throughout Italy’s provinces.
Leffmann’s Sale of the Painting
28. As the situation grew increasingly desperate
for Jews living in Italy, it became clear that it would
only be a matter of time before the Fascist regime’s
treatment of Jews would mimic that of Hitler’s Nazis.
Paul and Alice had to make plans to leave, and this
would require money. Switzerland was where they

App. 92
wanted to go to escape the horrors of Nazism and Fascism and find a truly safe haven. But, as was well
known at the time, passage into Switzerland, permanent or temporary, did not come easily or cheaply.
Given the urgency of their situation, Paul began to explore the possibility of selling his masterpiece, The Actor, with dealers in Paris. The events following the
Austrian Anschluss and Hitler’s visit to Italy in May
1938 confirmed the correctness of his actions – i.e., that
they would have had no choice but to turn whatever
assets they still controlled into cash.
29. Meanwhile, conditions for Jews in Italy only
grew worse. On February 17, 1938, every newspaper in
Italy published a Government announcement (“Diplomatic Notice Number 18,” issued on February 16),
which stated that “[t]he Fascist Government reserves
to itself the right to keep under close observation the
activity of Jews newly arrived in our country.”
30. In March 1938, SS General Heydrich traveled to Rome to meet with the head of the Italian Police, Bocchini, in order to plan for Hitler’s visit. Nazi
police officials were posted at 13 Police Headquarters
in border towns, ports and large cities to conduct interrogations and house searches. These officials, dressed
in Nazi uniforms, arrived on April 10-11, 1938. Meanwhile, on March 18, 1938, the Italian Ministry of the
Interior informed prefects in border provinces that “exAustrian Jewish subjects” should be denied entry into
Italy.

App. 93
31. Also in March 1938, the Italian Minister of
Foreign Affairs informed the U.S. Ambassador to Italy
that Italy would not be participating in the international initiative to “facilitate” the emigration of “political refugees” from Austria and Germany. Italian
newspapers made clear that “political refugees” was a
synonym for Jews.
32. In April 1938, in the face of the growing Nazi
persecution Treading across Europe and into Italy,
Paul escalated his efforts to liquidate The Actor.
33. In September of 1936, after he had been
forced by the Nazis to part with nearly everything he
owned, Leffmann had rejected an offer from the notorious art dealer, C.M. de Hauke of Jacques Seligmann
& Co. (whom the U.S. State Department later identified as a trafficker in Nazi-looted art) to sell The Actor.
Nearly two years later, on April 12, 1938, Leffmann, in
an even more desperate state, reached out to de Hauke
asking him if he would be interested in purchasing the
Painting.
34. Just days after writing to de Hauke, the situation in Italy grew even worse. From April 24-26,
General Heydrich, SS Reichsfiihrer Heinrich Himmler
(whom Hitler later entrusted with the planning and
implementation of the “Final Solution”) and SS General Josef “Sepp” Dietrich, the commander of Hitler’s
Leibstandarte (Hitler’s personal army), went to Rome
to complete preparations for Hitler’s visit. For three
weeks in April and May 1938 there were over 120 Gestapo and SS officers in Italy – primarily in Florence,

App. 94
Rome and Naples. The Gestapo officials and Italian police continued investigations and surveillance of “suspicious persons” until the end of Hitler’s visit,
arresting at least 80 people in Florence. The arrests
were carried out by the Italian police. Many German
Jewish residents fled in anticipation, and as a result,
of these arrests.
35. On May 3, Adolf Hitler arrived in Italy for his
official state visit. It was a momentous occasion for
Mussolini, and the Italian people turned out in the
tens of thousands to greet the German leader. From
May 3 through May 9, 1938, Hitler traveled to Rome,
Naples and Florence. This was no typical state visit.
Mussolini, anxious to strengthen the Axis alliance,
made sure that Italy spared no expense in putting on
its grandest show for Hitler. The streets of these Italian cities were covered in thousands of Nazi swastika
flags, which flew alongside Italy’s tricolor; flowerbeds
were decorated in the shape of swastikas and photographs of Mussolini and Hitler were made into postcards and displayed in shop windows. Parades and
military displays in honor of Hitler, attended by thousands of Italians, young and old, took place in every
city he visited. In Florence, the last city visited by Hitler on May 9th, city officials made an official postmark
that commemorated Hitler’s visit. Mail sent during
that time was stamped “1938 Il Führer a Firenze” and
decorated with swastikas.
36. Hitler’s visit made clear that the situation
in Italy for Jews was tense and the fear palpable.
For Leffmann, the time to flee Italy was quickly

App. 95
approaching, so he continued to try to sell the Painting
through de Hauke. Trying to raise as much cash as possible for the flight and whatever the future would
bring, Leffmann responded to a letter from de Hauke,
telling him that he had already rejected an offer obtained through another Paris dealer (presumably Käte
Perls) for U.S. $12,000 (net of commission). It is clear
from the letter that Leffmann was desperately trying
to improve his leverage to maximize the amount of
hard currency he could raise.
37. Violence was increasing and the persecution
of Jews was on the rise. All foreign Jews in Italy risked
arrest, and had good reason to fear possible deportation and death. Paul and Alice were in fear of their liberty and their lives. There was no time left. So just days
after telling de Hauke that he had rejected Mrs. Perls’
low offer, in late June 1938, Leffmann sold the Painting
at the very price he told Perls and de Hauke he would
not consider. He finally accepted Käte Perls’ offer of
U.S. $13,200 (U.S. $12,000 after a standard 10% selling
commission), who was acting on behalf of her exhusband, Hugo Perls, also an art dealer, and art dealer
Paul Rosenberg, with whom Perls was buying the
Painting.
38. On July 26, 1938, Frank Perls, Käte’s son,
who was also a dealer, wrote to automobile titan Walter
P. Chrysler Jr., asking if he would be interested in purchasing The Actor. Obviously aware of the “sensitivity”
of his overture, having just acquired a Picasso masterpiece from a German Jew on the run from Nazi Germany living in Fascist Italy for a low price that

App. 96
reflected the seller’s desperate circumstances and the
extraordinary prevailing conditions, he described the
work as having been purchased by Mrs. Perls from “an
Italian collector” – an outright lie.
39. In July 1938, the Leffmanns, as German
Jews, submitted their “Directory of Jewish Assets”
forms detailing all of their assets, which the Reich required all Jews (even those living abroad) to complete.
The penalties for failing to comply with this requirement included “fines, incarceration, prison, seizure of
assets.”
40. Meanwhile, the plight of the Jews in Italy deteriorated even further. In August 1938, enrollment of
foreign Jews in Italian schools was prohibited. A Jewish census, in which the Leffmanns were forced to participate, was conducted in preparation for the Italian
racial laws, which were soon to follow. A legal definition
of what constituted a “Jew” was considered, and discriminatory legislation was drafted. The Italian government increased surveillance of Jews because of the
fear that Jews would transfer their assets out of Italy
or emigrate and take their assets with them. A series
of anti-Semitic publications were released, among
them the infamous “Manifesto degli scienziati razzisti”
(“Manifesto of the Racial Scientists”), which attempted
to provide a scientific justification for the coming racial
laws, and the venomous magazine, “La difesa della
razza” (“The Defense of the Race”). In addition, a number of regional newspapers published lists of many of
the names of Jewish families residing in Florence.

App. 97
41. On September 7, 1938, the first anti-Semitic
racial laws were introduced in Italy, including “Royal
Enforceable Decree Number 1381,” which was approved by the Council of Ministers on September 1st
and was published in daily newspapers on September
2nd. It was signed by the King on September 7th and
was published in the “Gazzetta Ufficiale” on September
12th. With this Enforceable Decree, all “alien Jews”
were forbidden from residing in Italy. All Jews who arrived in Italy after January 1, 1919 had to leave Italy
within six months (i.e., by March 12, 1939) or face forcible expulsion. Bank accounts opened in Italy by foreign Jews were immediately blocked. At that point in
1938, Italy’s anti-Jewish measures had become extremely draconian, and in some instances had become
even harsher than the corresponding measures enacted in Germany.
42. The Leffmanns had no choice but to prepare
for immediate departure. Paul had sold The Actor not
a moment too soon. Switzerland was the obvious destination. But Switzerland, which already had strict border controls, became even more difficult to enter
beginning in 1938. In fact, it was about the worst time
to try to enter Switzerland. Switzerland, following the
incorporation of Austria into the Reich, imposed visa
requirements on holders of Austrian passports on
March 28, 1938, and in April began negotiations with
the Germans regarding the introduction of the notorious “J” stamp. On August 18-19, 1938 the Swiss decided to reject all refugees without a visa; on October
4, 1938, with an agreement reached on the adoption of

App. 98
the “J” stamp, they imposed visa requirements on German “non-Aryans.” Receiving asylum was virtually impossible, and German and Austrian Jews could only
enter Switzerland with a temporary residence permit
which, given the strict controls, and asset requirements imposed by the Swiss government, was not easy
to obtain.
43. Sometime before September 10, 1938, however, the Leffmanns managed to obtain a Toleranzbewilligung (a tolerance or temporary residence
visa) from Switzerland, valid from September 10, 1938
to September 10, 1941. In October 1938, just days after
the enactment of the racial laws expelling them from
Italy, the Leffmanns fled yet again, this time to Switzerland, where they were allowed to stay only temporarily.
44. By the time the Leffmanns arrived in Switzerland, the Anschluss and other persecutory events
had triggered a rising wave of flight from the Reich.
Consequently, Swiss authorities required emigrants to
pay substantial sums through a complex system of
taxes and “deposits” (of which the emigrant had no expectation of recovery).
45. In October 1938, all German Jews were required to obtain a new passport issued by the German
government stamped with the letter “J” for Jude, which
definitively identified them as being Jewish. As German citizens who required a passport to continue their
flight, the Leffmanns had no choice but to comply.

App. 99
46. The Leffmanns temporally resided in Bern,
Switzerland, but, unable to stay, prepared to flee yet
again, this time to Brazil. In addition to bribes that
were typically required to obtain necessary documentation, Brazil would only provide visas for Jews who
could transfer more than 400 contos (USD $20,000) to
the Banco do Brasil. On May 7, 1941, the Leffmanns,
still on the run, immigrated to Rio de Janeiro, Brazil,
where they lived for the next six years. But even in
Brazil, they could not escape the effects of the ongoing
war. All German residents living there, including the
Leffmanns, were forced to pay a levy imposed by the
Brazilian government of 20,000 Swiss Francs (or about
U.S. $4,641).
47. Given the various payments required by
Switzerland, as well as those that the Leffmanns
would need to enter Brazil, the Leffmanns depended
on the $12,000 (or approximately SF 52,440 in 1938)
they received from the sale of The Actor, as it constituted the majority of the Leffmanns’ available resources in June 1938. Had the Leffmanns not fled for
Brazil when they did, they would have likely suffered
a much more tragic fate at the hands of the Nazis regime and its allies.
48. The Leffmanns were not able to return to Europe until after the War had ended. In 1947 they settled in Zurich, Switzerland.
49. Paul Leffmann died on May 4, 1956 in Zurich,
Switzerland at the age of 86. He left his entire estate
to his wife, Alice Brandenstein Leffmann.

App. 100
50. Alice Leffmann died on June 25, 1966 in Zurich, Switzerland at the age of 88. She left her entire
estate to 12 heirs (all relatives or friends).
The Ancillary Estate of Alice Leffmann
51. In or about August 26, 2010, Nicholas John
Day, the Executor named in the will of Alice Anna
Berta Brandenstein, a legatee named in the will of Alice Leffmann, submitted a Petition for Ancillary Probate for the estate of Alice Leffmann in the Surrogate’s
Court of the State of New York, New York County authorizing Laurel Zuckerman to receive Ancillary Letters of Administration CTA of the estate. On October
18, 2010, Laurel Zuckerman received Ancillary Letters
of Administration CTA and was named Ancillary Administratrix by the Surrogate’s Court of the State of
New York, New York County.
The Museum’s Acquisition and
Possession of the Painting
52. The immediate history of the Painting after
it was purchased by Perls and Rosenberg in June of
1938 is unclear, but it is known that after the purchase,
the Painting was loaned by art dealer Paul Rosenberg
to the Museum of Modern Art (“MoMA”) in New York
in 1939. In the paperwork documenting the loan, Rosenberg requested that MoMA insure the Painting for
$18,000 (a difference of $6,000 or a 50% increase over
what had been paid to Leffmann less than a year earlier).

App. 101
53. Sometime prior to October 28, 1940, the
Painting was consigned for sale by Rosenberg to the
well-known M. Knoedler & Co. Gallery in New York,
New York. On November 14, 1941, M. Knoedler & Co.
sold the Painting to Thelma Chrysler Foy for $22,500
(a difference of U.S $9,300 or a 70% increase from the
price paid to Leffmann).
54. Thelma Chrysler Foy donated the Painting to
the Museum in 1952, where it remains today. The Museum accepted this donation.
55. As a matter of law and public policy, good title to the Painting never passed from Leffmann to
Perls and Rosenberg, and thus neither Perls, Rosenberg nor Foy could convey good title to the Painting.
Therefore, the Museum never acquired good title to the
Painting, and it remains the property of the Leffmann
estate.
56. The Museum, given its resources, relationships, expertise, and status as a museum that holds its
collection in the public trust, should have discovered,
through due diligence, Leffmann’s ownership up and
until 1938, and the circumstances under which he was
compelled to dispose of the Painting because of Nazi
and Fascist persecution.
57. Nonetheless, the Museum’s published provenance for the Painting was manifestly erroneous when
it first appeared in the Museum’s catalogue of French
Paintings in 1967. Instead of saying that Leffmann
owned the Painting from 1912 until 1938, it read as
follows: “P. Leffmann, Cologne (in 1912); a German

App. 102
private collection (until 1938) . . . ”, thus indicating
that Leffmann no longer owned the Painting in the
years leading up to its sale in 1938.
58. This remained the official Museum provenance for the Painting for the next 45 years, including
when it was included on the Museum’s website as part
of the “Provenance Research Project,” which is a section of the website that includes all artworks in the
Museum’s collection that have an incomplete Nazi-era
provenance.
59. From 1967 to 2010, the provenance listing
was changed numerous times. It continued to state,
however, that the Painting was part of a German private collection, and not that it was owned by Leffmann
continuously from 1912 until 1938.
60. In connection with a major exhibition of the
Museum’s Picasso holdings in 2010 entitled, “Picasso
in the Metropolitan Museum of Art”, the provenance
was changed yet again. The forward to the exhibition
catalogue by the Museum’s director, Thomas P. Campbell, states that “[m]ore than a dozen members of our
curatorial and conservation staff devoted the last year
to an intensive study of the Museum’s works by Picasso . . . Thanks to these extensive studies, for example, we have been able to confirm the authorship of one
painting and to better establish the early ownership
and exhibition history of many other works.” Picasso in
the Metropolitan Museum of Art, The Metropolitan
Museum of Art, New York, 2010, p. vii.

App. 103
61. Despite purportedly careful examination, as
of 2010, the provenance of the Painting continued to
erroneously list the “private collection” subsequent to
the Leffmann listing.
62. All of these versions of the Painting’s provenance were incorrect. Paul owned the Painting from
1912 until its “sale” under duress to Perls in June 1938.
The Museum’s asserted explanation for the forty-five
years of erroneous provenance only underscores its improper conduct when it first acquired the Painting. The
Museum asserts that the genesis of the original provenance entry in 1967 was that, some fifteen years after
acquiring the Painting, the Museum’s curators finally
asked Perls where he had obtained the Painting and
that his answer was that he had bought it in 1938 from
a “German professor” in Solothurn, Switzerland who
had been “thrown out by Nazis.” (Perls allegedly could
not remember the name of the German collector when
asked in the 1960’s.) Therefore, at least at the time of
the cataloguing, red flags should have been raised for
the Museum. It should have tried to correct its error by
then investigating the acquisition of the Painting, especially because Perls already said that he could not
remember the name of the German collector and, more
pointedly, that the seller had been “thrown out” of Germany by the Nazis. But obviously no investigation was
conducted in 1967, and the provenance published in
1967, and for many years thereafter, was erroneous.
63. In October 2011, only after extensive correspondence with Plaintiff, the Museum revised its provenance yet again. The revised provenance omitted the

App. 104
reference to the mysterious private German collector
who had purportedly owned The Actor from 1913-1938
and finally acknowledged Leffmann’s ownership
through 1938 and his transfer of it during the Nazi era.
64. The Museum’s conduct ignored directives
and warnings issued by the U.S. Government. The Museum had specifically been warned about accepting or
buying art misappropriated during the Nazi era As
early as 1945, the American Commission for the Protection and Salvage of Artistic and Historic Monuments in War Areas (also known as the “Roberts
Commission”) issued a circular, addressed “to museums, art and antique dealers and auction houses,”
which emphasized the importance of bringing “specific
examples of looting of works of art or cultural material
[ ] to light as soon as possible,” and which encouraged
museums and others to inform the Roberts Commission of objects of “special artistic importance” that had
“obscure or suspicious” provenances. The Commission
also issued the following statement: “[i]t is, of course,
obvious that no clear title can be passed on objects that
have been looted from public or private collections
abroad.” In or about 1947, the Department of State
sent American museums, as well as universities, libraries, art dealers and book sellers, another bulletin,
in which it highlighted the responsibility of museums
and other American institutions to exercise “continued
vigilance” in identifying cultural objects with provenances tainted by World War II. The directive underscored the need for museums to notify the Secretary of
State of any objects identified as lacking a clear title.

App. 105
In 1950, the College Art Association of America reprinted the directive in College Art Journal, and in
1951, the American Federation of Arts reprinted the
directive again in Magazine of Art.
65. The Museum’s conduct was also inconsistent
with the principles espoused by the American Alliance
of Museums (“AAM”), by which the Museum is accredited, and the Association of Art Museum Directors
(“AAMD”), to which the Museum is a member principles closely correlated to the landmark Washington
Conference Principles on Nazi-Appropriated Art. For
example, recognizing that a museum’s mission is to
serve the public and that its responsibility to practice
ethical stewardship is paramount, AAM’s “Standards
Regarding Unlawful Appropriation of Objects During
the Nazi Era” dictates that museums: (i) identify all
objects in their collections that were created before
1946 and acquired by the museum after 1932, that underwent a change of ownership between 1932 and
1946, and that were or might reasonably be thought to
have been in continental Europe during those dates;
(ii) make currently available object and provenance
(history of ownership) information on those objects accessible; and (iii) give priority to continuing research
as resources allow.
Plaintiff Demands the Return of the
Painting and the Museum Refuses
66. On September 8, 2010, Plaintiff ’s attorneys,
Herrick, Feinstein LLP, wrote to the General Counsel

App. 106
of the Museum, demanding the return of the Painting,
but the Museum failed and refused to deliver the
Painting to Plaintiff. The Painting remains in the possession of the Defendant through the filing of this
Complaint.
67. On February 7, 2011, the parties entered into
a standstill agreement tolling any statute of limitations as of February 7, 2011. Such agreement was
thereafter amended several times to terminate on September 30, 2016. The final amendment of the standstill
agreement terminated on September 30, 2016. The action is therefore timely.
FIRST CLAIM
(For Replevin)
68. Plaintiff repeats and realleges each of the allegations contained in the preceding paragraphs of this
Complaint as if fully set forth herein.
69. The Leffmann estate is the rightful owner of
the Painting, and Plaintiff, as Ancillary Administratrix
of the Leffmann estate, is thus entitled to recover sole
possession of the Painting.
70. The Painting is a unique and irreplaceable
work of art.
71. Plaintiff demanded the return of the Painting. Defendant failed and refused to deliver the Painting to Plaintiff.

App. 107
72. Plaintiff is entitled to the immediate return
of the Painting.
SECOND CLAIM
(For Conversion)
73. Plaintiff repeats and realleges each of the allegations contained in the preceding paragraphs of this
Complaint as if fully set forth herein.
74. The Leffmann estate is the rightful owner of
the Painting, and Plaintiff, as Ancillary Administratrix
of the Leffmann estate, is thus entitled to recover sole
possession of the Painting.
75. Plaintiff demanded the return of the Painting. Defendant failed and ref used to deliver the Painting to Plaintiff.
76. In refusing to return the Painting when demanded, Defendant converted and appropriated the
Painting for its own use in complete disregard and derogation of the Leffmann estate’s rights, title and interest to the Painting.
77. As a result of Defendant’s wrongful conduct,
the Leffmann estate has suffered damages, and Plaintiff is entitled to an award, in an amount to be determined at trial, but estimated to be in excess of $100
million.

App. 108
THIRD CLAIM
(For Declaratory Judgment)
78. Plaintiff repeats and realleges each of the allegations contained in the preceding paragraphs of this
Complaint as if fully set forth herein.
79. The Leffmann estate is the rightful owner of
the Painting, and Plaintiff, as Ancillary Administratrix
of the Leffmann estate, is thus entitled to the immediate possession of the Painting.
80. Defendant does not have good title to the
Painting.
81. Plaintiff demanded the return of the Painting. Defendant failed and refused to deliver the Painting to Plaintiff.
82. Plaintiff is entitled to a judgment declaring
that the Leffmann estate is the sole owner of the Painting.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff demands judgment against
Defendant as follows:
a) On the First Claim, directing that Defendant
immediately deliver the Painting to Plaintiff;
b) On the Second Claim, in the alternative,
awarding Plaintiff damages in an amount to be proven
at trial, but estimated to be in excess of $100 million;

App. 109
c) On the Third Claim, declaring that the Leffmann estate is the rightful owner of the Painting and
that Plaintiff, as Ancillary Administratrix of the Leffmann estate, is entitled to immediate possession of the
Painting;
d) Awarding Plaintiff fees and costs pursuant to
Fed. R. Civ. P. 54(d); and
e) Awarding any such other and further relief as
the Court deems just and proper.
Dated: New York, New York
November 2, 2016
Respectfully submitted,
HERRICK, FEINSTEIN LLP
By: /s/ Lawrence M. Kaye
Lawrence M. Kaye
Howard N. Spiegler
Ross L. Hirsch
Yael M. Weitz
2 Park Avenue
New York, New York 10016
Tel: (212) 592-1410
Fax: (212) 592-1500
Attorneys for Plaintiff
Laurel Zuckerman, Ancillary
Administratrix of the estate
of Alice Leffmann

